App. 1
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0328p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

DAVITA, INC.; DVA RENAL
HEALTH, INC.,
Plaintiffs-Appellants,
No. 19-4039

v.
MARIETTA MEMORIAL
HOSPITAL EMPLOYEE HEALTH
BENEFIT PLAN; MARIETTA
MEMORIAL HOSPITAL;
MEDICAL BENEFITS MUTUAL
LIFE INSURANCE CO.,
Defendants-Appellees.

Appeal from the United States District Court
for the Southern District of Ohio at Columbus.
No. 2:18-cv-01739—
Sarah Daggett Morrison, District Judge.
Argued: July 30, 2020
Decided and Filed: October 14, 2020
Before: MOORE, CLAY, and MURPHY, Circuit Judges.
-----------------------------------------------------------------------

App. 2
COUNSEL
ARGUED: Bobby R. Burchfield, KING & SPALDING
LLP, Washington, D.C., for Appellants. William H.
Prophater, Jr., NEWHOUSE, PROPHATER, KOLMAN & HOGAN, LLC, Columbus, Ohio, for Marietta
Memorial Appellees. Rodney A. Holaday, VORYS,
SATER, SEYMOUR AND PEASE LLP, Columbus,
Ohio, for Appellee Medical Benefits Mutual Life Insurance Co. ON BRIEF: Bobby R. Burchfield, KING &
SPALDING LLP, Washington, D.C., for Appellants.
William H. Prophater, Jr., D. Wesley Newhouse,
NEWHOUSE, PROPHATER, KOLMAN & HOGAN,
LLC, Columbus, Ohio, for Marietta Memorial Appellees. Rodney A. Holaday, VORYS, SATER, SEYMOUR
AND PEASE LLP, Columbus, Ohio, Brent D. Craft,
VORYS, SATER, SEYMOUR AND PEASE LLP, Cincinnati, Ohio, for Appellee Medical Mutual Benefits
Mutual Life Insurance Co. Deanna J. Reichel, Ryan V.
Petty, FISH & RICHARDSON P.C., Minneapolis, Minnesota, Mary L. Stoll, STOLL LAW GROUP, PLLC,
Seattle, Washington, John R. Christiansen, CHRISTIANSEN IT LAW, Olympia, Washington, for Amici
Curiae.
MOORE, J. (pp. 2–33; app. 34–38), delivered the
opinion of the court in which CLAY, J., joined. MURPHY, J. (pp. 39–55), delivered a separate opinion concurring in the judgment in part and dissenting in part.

App. 3
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

KAREN NELSON MOORE, Circuit Judge. Plaintiff DaVita, Inc. and its subsidiary, DVA Renal
Healthcare, Inc., appeal the district court’s dismissal of
their lawsuit alleging various violations of the Medicare Secondary Payer Act and the Employee Retirement Income Security Act of 1974 by an employee
health benefit plan and its administrators. According
to DaVita, the plan unlawfully treated a plan participant and DaVita patient—known as Patient A in this
lawsuit—differently because this patient suffers from
end-stage renal disease. In particular, the plan allegedly targeted renal dialysis services, which DaVita
provides to Patient A, with poor reimbursement rates,
in the hopes that dialysis patients like Patient A would
switch to Medicare, which they are legally entitled to
do three months after being diagnosed with the disease. Upon the defendants’ motions to dismiss, the district court dismissed all of DaVita’s claims with
prejudice, and DaVita appealed. For the following reasons, we are persuaded that, as to Counts I, II, and VII
of its complaint, DaVita has plausibly alleged that the
defendants have engaged in unlawful discrimination.
As to the rest of its claims, DaVita lacks a sufficient
interest to prosecute them. Accordingly, we AFFIRM
in part, REVERSE in part, and REMAND for discovery and further proceedings on Counts I, II, and VII of
DaVita’s complaint.

App. 4
I.

BACKGROUND1

Plaintiff DaVita, and its subsidiary, Plaintiff DVA
Renal Healthcare, Inc., are leading providers of dialysis treatment in the United States. R. 1 (Compl. ¶¶ 11–
12) (Page ID #5). Since April 15, 2017, DaVita has provided dialysis treatment to Patient A, an anonymous
individual diagnosed with end-stage renal disease
(“ESRD”). Id. ¶¶ 19, 29 (Page ID #6–7, 10). Before Patient A began receiving treatment, the patient signed
an “Assignment of Benefits” form that assigned their
rights under the insurance plan to DaVita. Id. ¶ 31
(Page ID #10). Between April 15, 2017, and August 31,
2018, the costs of Patient A’s dialysis sessions were reimbursed by their health benefit plan, Defendant
Marietta Memorial Hospital Employee Health Benefit
Plan (the “Plan”), a self-funded plan governed by the
Employee Retirement Income Security Act of 1974
(“ERISA”). Id. ¶¶ 13, 29 (Page ID #5, 10). The Plan is
funded and administered by Defendant Marietta Memorial Hospital, and its benefit manager is Defendant
Medical Benefits Mutual Life Insurance Co. (“MedBen”).
Id. ¶¶ 14–15 (Page ID #5).
The Plan provides three tiers of reimbursement
benefits, and during the period that Patient A was a
member of the Plan, the Plan reimbursed DaVita for
the patient’s dialysis costs at the bottom tier, Tier 3.
Id. ¶ 24 (Page ID #8). This bottom tier applied to
1

The following facts are undisputed unless otherwise noted.
All facts are construed in the light most favorable to the plaintiff.
See Lindenberg v. Jackson Nat’l Life Ins. Co., 912 F.3d 348, 357
(6th Cir. 2018).

App. 5
providers, like DaVita, who are “out-of-network.” Id.
DaVita was not alone as a bottom-tier dialysis provider—under the Plan’s terms, all dialysis providers
are considered out-of-network and are thus subject to
lower reimbursement amounts than providers in Tier
1 and Tier 2 are. Id. ¶ 25 (Page ID #8). In addition to
this categorically lower reimbursement level, dialysis
providers like DaVita are subject to a further, unique
limitation. Whereas most out-of-network providers are
reimbursed in the bottom tier based on a “reasonable
and customary” fee as the term is understood in the
healthcare industry, dialysis providers are subject to
an “alternative basis for payment.” Id. ¶ 27 (Page ID
#9). Specifically, reimbursement for dialysis providers
“will not exceed the maximum payable amount applicable . . . which is typically one hundred twenty-five
percent (125%) of the current Medicare allowable fee.”
Id. (quoting Compl. Ex. A at 17). Finally, for the dialysis service itself, the Plan reimburses at a rate of 70%
of the 125% of the Medicare allowable fee—in other
words, 87.5% of the Medicare rate, see Appellant Br. at
20—a fee which is already lower than the industrywide definition of a “reasonable and customary” fee.
R. 1 (Compl. ¶ 28) (Page ID #9–10). For these reasons,
DaVita was reimbursed at a relatively lower rate both
compared to in-network providers and to other out-ofnetwork providers.
DaVita was not the only entity that allegedly suffered due to the Plan’s differential treatment of dialysis reimbursement. During the time that Patient A was
covered by the Plan, the patient had no in-network

App. 6
options for dialysis services, exposing them to higher
copayments, coinsurance amounts, and deductibles. Id.
¶ 48 (Page ID #16–17). Patient A was allegedly at risk
of DaVita billing them for the balance of what the Plan
had not reimbursed DaVita. Id. ¶ 35 (Page ID #11–12).
The Plan also identified dialysis as subject to heightened scrutiny, such as “cost containment review” and
“claim audit and/or review,” which allegedly incentivizes dialysis patients to abandon the Plan and switch
to Medicare. Id. ¶ 51 (Page ID #18). On August 31,
2018, Patient A dropped the Plan as a primary insurance provider and switched to Medicare, to which they
were entitled by virtue of having ESRD. Id. ¶ 29 (Page
ID #10); see 42 U.S.C. § 426-1.
On December 19, 2018, DaVita filed a complaint
against the defendants, alleging that the Plan treats
dialysis providers differently from other medical providers in violation of the Medicare Secondary Payer
Act (“MSPA”) and ERISA. R. 1 (Compl. at 1) (Page ID
#1). The complaint is brought on DaVita’s behalf and
on behalf of Patient A. Id. ¶ 10 (Page ID #4). The crux
of DaVita’s complaint is that by offering inferior benefits to individuals with ESRD, the Plan unlawfully incentivized such individuals, like Patient A, to drop the
Plan as their health insurer and go on Medicare. Id.
¶ 6, 50 (Page ID #3, 17–18). On February 14, 2019,
Marietta Memorial Hospital and the Plan moved to
dismiss DaVita’s complaint, R. 17 (Marietta Mot. to
Dismiss at 1) (Page ID #182), and on the next day,
MedBen did the same, R. 18 (MedBen Mot. to Dismiss
at 1) (Page ID #192).

App. 7
On September 20, 2019, the district court granted
the defendants’ motions to dismiss in a written opinion
and order, dismissing all of DaVita’s counts with prejudice. See DaVita, Inc. v. Marietta Mem’l Hosp. Emp.
Health Benefit Plan, No. 2:18-CV-1739, 2019 WL
4574500, at *5, 7 (S.D. Ohio Sept. 20, 2019). As to
DaVita’s MSPA claim, the district court explained that
the MSPA private cause of action was available only to
sue for recovery of payments that Medicare had made
to a provider when a plan failed to make these payments and that, in this case, Medicare had made no
such payments. Id. at *2–3. Alternatively, the district
court held that even if this private cause of action were
available, the Plan had not discriminated unlawfully
against individuals with ESRD through its reimbursement system. Id. at *3–5. As to DaVita’s ERISA claims
that were premised on MSPA violations, the district
court held that its analysis regarding the lack of unlawful discrimination foreclosed these claims. Id. at *5.
Lastly, as to DaVita’s ERISA claims that were premised on a breach-of-fiduciary-duty theory, the district
court held that the Assignment of Benefits signed by
Patient A was insufficient to confer standing on DaVita
to bring these claims. Id. at *5–7.2 DaVita timely appealed. R. 48 (Notice of Appeal at 1) (Page ID #494).

2

The district court’s opinion states conflicting bases for dismissing Count VII. Compare Da Vita, 2019 WL 4574500, at *5
(appearing to dismiss Count VII on its merits, i.e., failure to allege
a violation of the MSPA), with id. at *7 (“Counts Three through
Seven are DISMISSED with prejudice, for lack of standing.”)
(emphasis added). This conflict is irrelevant, however, given that

App. 8
II.

STANDARD OF REVIEW

We review de novo the district court’s grant of a
motion to dismiss. Milligan v. United States, 670 F.3d
686, 692 (6th Cir. 2012). A complaint must include “a
short and plain statement of the claim showing that
the pleader is entitled to relief,” Fed. R. Civ. P. 8(a)(2),
and is properly dismissed if it “fail[s] to state a claim
upon which relief can be granted,” Fed. R. Civ. P.
12(b)(6). “[A] federal court of appeals is not restricted
to ruling on the district court’s reasoning, and may affirm a district court’s grant of a motion to dismiss on a
basis not mentioned in the district court’s opinion.” In
re Comshare, Inc. Sec. Litig., 183 F.3d 542, 547–48 (6th
Cir. 1999). “This Court reviews de novo the district
court’s decision to dismiss a claim for lack of standing.”
Coyne v. Am. Tobacco Co., 183 F.3d 488, 492 (6th Cir.
1999).
III.

DISCUSSION

A. The Private Cause of Action
DaVita’s complaint first alleges a violation of the
MSPA through the Act’s private cause of action. The
defendants argue that a Medicare conditional payment
is required before a party can sue under this cause of
action and that, in this case, Medicare was not allegedly forced to make a conditional payment to cover the
Plan’s obligations. We agree with the first proposition
and disagree with the second. Although the plain text
we review the dismissal de novo whether it was based on the merits or on standing. See supra Part II.

App. 9
of the private-cause-of-action provision requires Medicare to make a conditional payment before the cause of
action is available, Medicare allegedly made such a
payment in this case. In order to explain why, a brief
background on the statutory framework is necessary.3
1. Statutory Background
In 1972, Congress extended Medicare coverage
to nearly all individuals with ESRD. See Pub. L. No.
92-603, § 2991, 86 Stat. 1429, 1463–64 (1972). This
meant that Medicare served as the primary payer of
health costs for such individuals, as well as the many
other individuals eligible for Medicare. Amid rising
healthcare costs, in 1980, Congress began its effort
to counteract escalating Medicare costs by enacting
the MSPA, which initially focused on getting private
health insurance plans to help cover costs that Medicare had been paying out for automobile accidents.4
See United States v. Baxter Int’l, Inc., 345 F.3d 866, 889
(11th Cir. 2003). In enacting the MSPA, Congress determined that Medicare would have secondary rather
than primary liability for accident-injury healthcare
costs incurred by a Medicare-eligible individual who
had automobile insurance that covered these costs. See
H.R. REP. No. 96-1167, at 389 (1980). Thus, if a certain
individual was eligible for Medicare but had private
3

An appendix of the various statutes and regulations discussed in this opinion appears at the end of this opinion.
4
Prior to 1980, workers’ compensation and other government benefits were also primary payers before Medicare. See Social Security Amendments of 1965, Pub. L. No. 89-97, § 1862(a).

App. 10
insurance, Medicare would serve not as the primary
payer but as the secondary payer (i.e., the backup
payer) in case the private insurer did not pay. See
Stalley v. Methodist Healthcare, 517 F.3d 911, 915 (6th
Cir. 2008). If it was reasonably expected that a private
health plan would not pay a healthcare provider
promptly, Medicare could make a conditional payment
to the provider on the plan’s behalf and later seek reimbursement. Id.
In the Omnibus Reconciliation Act of 1981 (“1981
OBRA”), Congress amended the MSPA to cover individuals with ESRD who are on private health insurance. See Omnibus Budget Reconciliation Act of 1981,
Pub. L. No. 97-35, § 2146 (1981). With this amendment,
an individual’s private insurer—such as an employerfunded health plan, like the Plan in this case—was required to pay for a patient’s dialysis treatment for a
period of twelve months5, after which Medicare would
take over and become the primary payer for these
treatments. The Senate Report for the 1981 OBRA explained that before the amendment, “most health
plans . . . contain[ed] provisions that [we]re intended
to prevent payment of benefits where the insured [wa]s
also entitled to benefits as a result of coverage under a
program such as [M]edicare.” S. REP. 97-139, at 735
(1981). The amended Act prohibited this. It denied a
health plan’s tax deduction “if the plan differentiates
in the benefits it provides between individuals having
[ESRD] and other individuals covered by such plan on
5

This period is now thirty months. 42 U.S.C. § 1395y(b)(1)(C)
(2016).

App. 11
the basis of the existence of [ESRD], the need for renal
dialysis, or in any other manner.” Pub. L. No. 97-35,
§ 2146(b). As we have observed, “[i]t would appear that
the precise problem that Congress sought to ameliorate was that private plans would provide inferior benefits or coverage for medical treatment that also was
covered by Medicare.” Bio-Med. Applications of Tenn.,
Inc. v. Cent. States Se. & Sw. Areas Health & Welfare
Fund, 656 F.3d 277, 281 (6th Cir. 2011).
The resulting statute, after several decades of
amendments, thus prevents a “group health plan” from
taking two actions with respect to an individual diagnosed with ESRD:
A group health plan . . .
(i) may not take into account that an individual is entitled to or eligible for [Medicare benefits due to ESRD] during the
[30]-month period which begins with the
first month in which the individual becomes entitled to benefits . . . ; and
(ii) may not differentiate in the benefits
it provides between individuals having
end stage renal disease and other individuals covered by such plan on the basis of
the existence of end stage renal disease,
the need for renal dialysis, or in any other
manner[.]
42 U.S.C. § 1395y(b)(1)(C). If a private plan violates
these antidiscrimination provisions and fails to pay
for a plan member’s dialysis treatment because that

App. 12
individual has become eligible for Medicare benefits by
virtue of having ESRD, Medicare still stands in as a
backup payer. See Bio-Med., 656 F.3d at 283–84. In
practice, this secondary payment system allows individuals with ESRD to continue receiving treatment
from a dialysis provider when their primary plan has
not paid or is not expected to pay the provider. Specifically, the statute states that when a primary plan
“cannot reasonably be expected” to pay “promptly,”
Medicare may make “conditional payment[s]” to the
provider. 42 U.S.C. § 1395y(b)(2)(B)(i). The statute requires the primary plan to reimburse Medicare for
such conditional payments. Id. § 1395y(b)(2)(B)(ii). By
contrast, if the primary plan has paid or is reasonably
expected to pay the provider, Medicare may not make
payments to the provider. See id. § 1395y(b)(2)(A)(i)
(prohibiting Medicare from paying as a secondary
payer “except as provided in subparagraph (B),” the
conditional payment provision).
The MSPA has two internal enforcement mechanisms. The first is the government-enforcement provision, which reads:
In order to recover payment made under this
subchapter for an item or service, the United
States may bring an action against any or all
entities that are or were required or responsible (directly, as an insurer or self-insurer, as
a third-party administrator, as an employer
that sponsors or contributes to a group health
plan, or large group health plan, or otherwise)
to make payment with respect to the same

App. 13
item or service (or any portion thereof ) under
a primary plan.
42 U.S.C. § 1395y(b)(2)(B)(iii). The second is the privatecause-of-action provision, which reads:
There is established a private cause of action
for damages (which shall be in an amount
double the amount otherwise provided) in the
case of a primary plan which fails to provide
for primary payment (or appropriate reimbursement) in accordance with paragraphs (1)
and (2)(A).
42 U.S.C. § 1395y(b)(3)(A). In the private-cause-of-action provision, paragraph (1) refers to the MSPA’s antidiscrimination provision, and paragraph (2)(A) refers
to the MSPA’s Medicaresecondary-payment provision.
As we recognized in Bio-Medical, the private-causeof-action provision is worded somewhat oddly. See
656 F.3d at 279 (describing the “tortuous text” of the
MSPA). In particular, the provision suggests that a primary plan could fail to comply with a rule—set forth
in subparagraph (2)(A)—that applies to Medicare, not
to the primary plan. See id. at 286 (“How can a primary
plan fail to make a payment in accordance with subparagraph (2)(A), if that subparagraph only instructs
when Medicare, and not primary plans, may or may
not make payments? The answer, of course, is that it
cannot: it is impossible for one to violate an order
addressed only to someone else.”). Our solution in BioMedical for rendering the private-cause-of-action provision functional was to “consider paragraphs (1)
and (2)(A) collectively, rather than individually.” Id.

App. 14
Namely, we explained that “a primary plan fails to pay
‘in accordance with paragraphs (1) and (2)(A)’ when it
terminates a planholder’s coverage and thereby induces Medicare to make a conditional payment on its
behalf—that is, when the primary plan violates the
statutory system that these two paragraphs set into
motion.” Id. “Put differently, a primary plan is liable
under the private cause of action when it discriminates
against planholders on the basis of their Medicare eligibility and therefore causes Medicare to step in and
(temporarily) foot the bill.” Id.
2. Availability of the Private Cause of Action When Medicare Has Not Made a
Conditional Payment
The defendants argue that, based in part on the
above language from Bio-Medical, DaVita is prohibited
from suing under the private cause of action because
Medicare did not make a conditional payment in this
case. DaVita essentially has three responses. First,
Bio-Medical does not hold that a payment by Medicare
is a precondition to suing under the private cause of
action. Second, the text and purpose of the MSPA counsel against requiring this as a precondition. Third,
even if payment by Medicare were required, DaVita’s
complaint satisfies this requirement because the Plan
induced Patient A to enroll in Medicare, which led to
Medicare making payments for Patient A’s dialysis before the relevant thirty-month period was over. We
hold as follows: (1) Bio-Medical did not hold that a precondition was required, (2) but our independent review

App. 15
of the statutes confirms that it is; (3) however, Medicare’s payment in this case was conditional, and thus
the private cause of action is available to DaVita.
a. Bio-Medical does not control this case
Bio-Medical’s thoughtful discussion on the availability of the private cause of action was not necessary
to its decision. In Bio-Medical, the panel was faced
with a straightforward case of a primary plan’s terminating coverage and Medicare’s stepping in to cover
the primary plan’s obligations. The primary plan had
completely ceased payments to the dialysis provider
upon learning that the relevant patient was eligible for
Medicare, even though the patient was still a member
of the plan. Id. at 280. Given that the primary plan was
failing to meet its payment obligations under the
MSPA, the dialysis provider turned to Medicare, which
began making payments to enable the patient to continue to receive treatment. Id. Thus, the question before the panel was not whether Medicare payments
were a precondition for suit under the private cause of
action, but whether this cause of action could be used
if the primary plan’s payment had not been previously
“demonstrated,” such as by a judgment or settlement.
Id. at 279.
Despite the clarity of Bio-Medical’s language regarding Medicare “step[ping] in and (temporarily)
foot[ing] the bill,” this statement was not necessary to
its decision. Instead, this statement is a clear example
of dicta. See Black’s Law Dictionary (11th ed. 2019)

App. 16
(defining obiter dictum as “[a] judicial comment made
while delivering a judicial opinion, but one that is unnecessary to the decision in the case and therefore not
precedential”). This is not a case in which one panel
has issued a clear holding on an issue and a litigant in
a subsequent case is bound by that holding despite presenting a novel argument that the prior panel did not
actively consider in issuing its holding. See, e.g.,
Grundy Mining Co. v. Flynn, 353 F.3d 467, 479 (6th Cir.
2003); see also United States v. Bawgus, 782 F. App’x
408, 412 n.3 (6th Cir. 2019) (Moore, J., concurring in
the judgment). Nor can the relevant statements in BioMedical be considered one of several alternative holdings, which standing alone could be viewed as technically unnecessary given the existence of the others. Cf.
Woods v. Interstate Realty Co., 337 U.S. 535, 537 (1949)
(“[W]here a decision rests on two or more grounds,
none can be relegated to the category of obiter dictum.”). The statement that the private cause of action
is permitted when Medicare has made a payment was
not necessary to the decision, and is thus dicta.6
6

The Bio-Medical panel’s identification of the “counterargument” to its interpretation of the statute supports the conclusion
that the “step[ping] in” language in Bio-Medical was dicta. 656
F.3d at 287. Had the panel held that the text required Medicare
payments as a prerequisite for suing under the private cause of
action, one might expect the “counterargument” to be that such
payments are not, in fact, required. Instead, the panel explained,
the “counterargument” to its holding was that “in order to be liable under the Act’s private cause of action, a primary plan’s responsibility to pay must have already been ‘demonstrated’ prior
to the lawsuit.” Id. Thus, the discussion regarding Medicare’s
temporarily footing the bill was relevant only insofar as it rejected the proposition that a “demonstrated responsibility” was a

App. 17
Indeed, the Bio-Medical panel itself did not consider
its “step[ping] in” discussion to constitute a holding. Its
“Summary of Holdings and Implications for This Case”
makes no reference to a requirement that Medicare
step in and make a payment to the provider before a
private cause of action will be available. 656 F.3d at
294.
b. The MSPA’s private-cause-of-action provision requires a conditional payment
by Medicare
Although Bio-Medical does not dictate the outcome in this case, we conclude that the MSPA does require a conditional payment by Medicare before a
planholder (or a planholder’s assignee) may sue under
the private cause of action. Beginning with the text of
the provision, the question is what it means for a primary plan to “fail to provide for primary payment (or
appropriate reimbursement) in accordance with paragraphs (1) and (2)(A),” 42 U.S.C. § 1395y(b)(3)(A), or
more specifically, whether “in accordance with . . .
(2)(A)” constitutes a conditional-payment requirement.
As discussed above, paragraph (1) refers to the antidiscrimination provisions of the MSPA, and paragraph
prerequisite to suit under the private cause of action. Medicare
having stepped in and made payments—as opposed to the existence of a “demonstrated responsibility” by a primary plan—was
sufficient, but not clearly necessary, for permitting suit under the
provision. See Reply Br. at 6 (“To resolve the liability question,
this Court decided only that the payment by Medicare in that case
was sufficient to allow the private suit, not that a payment by
Medicare was necessary in all circumstances.”).

App. 18
(2)(A) refers to the “Medicare secondary payer” provision. The private-cause-of-action provision is explicitly
limited to situations in which a primary plan has failed
to act in accordance with both paragraphs (1) and
(2)(A). See Bio-Med., 656 F.3d at 285 (emphasizing the
conjunctive nature of the private-cause-of-action provision). As we said in Bio-Medical, incorporating paragraph (2)(B) into paragraph (2)(A) results in the
following formulation of paragraph (2)(A): “Medicare
may not pay for any item or service to the extent that
the Act requires a primary plan to pay, except that Medicare may conditionally pay for the item or service if the
primary plan cannot reasonably be expected to pay
promptly.” Id. at 286. The question is how a primary
plan might fail to act in accordance with this provision.
In our view, the only way that a primary plan can
fail to act in accordance with this provision is by failing
to make payments or appropriate reimbursements to a
provider and thus triggering the remission of a conditional payment by Medicare. We thus make a holding
of our observation in Bio-Medical: “[A] primary plan is
liable under the private cause of action when it discriminates against planholders on the basis of their
Medicare eligibility and therefore causes Medicare to
step in and (temporarily) foot the bill.” 656 F.3d at
286. When we “consider paragraphs (1) and (2)(A) collectively, rather than individually,” discriminating
against a planholder in violation of paragraph (1) is
what sets in motion the conditional-payment mechanism set forth in paragraph (2). Id. And conditional
payment is the only type of payment permitted under

App. 19
paragraph (2)(A). Thus, the only way that a primary
plan fails to act in accordance with paragraph (2)(A)—
or, in other words, the only way it sets paragraph
(2)(A)’s payment mechanism in motion—is by triggering Medicare to make a conditional payment. It is
true that, unlike the government-enforcement provision, which explicitly states that enforcement actions
may be taken “to recover payment made,” 42 U.S.C.
§ 1395y(b)(2)(B)(iii), the private-cause-of-action provision does not explicitly identify payment recovery as
the purpose of the provision. Appellant Br. at 29–30;
Reply Br. at 4–5. But the private-cause-of-action provision’s reference to paragraph (2)(A) unmistakably incorporates a prerequisite that Medicare has paid the
provider. And as for DaVita’s purpose-based argument
about the private-cause-of-action provision, “[c]ourts
considering the provision have generally agreed that
the apparent purpose of the statute is to help the government recover conditional payments from insurers
or other primary payers.” Stalley v. Cath. Health Initiatives, 509 F.3d 517, 524 (8th Cir. 2007).
An alternative reading of the private-cause-ofaction provision—one that, we note, no party has
raised—is that the provision requires the showing of a
Medicare payment, but not a conditional Medicare
payment, as a precondition to suit. Under this theory,
a plan would fail to pay (or appropriately reimburse)
in accordance with paragraph (2)(A) when it forces
Medicare to break with the paragraph’s general prohibition on payments other than conditional ones.
That is, because paragraph (2)(A) contemplates only

App. 20
conditional payments, a plan that induced Medicare to
make a payment outside what the statute has contemplated would contravene paragraph (2)(A). The problem with this interpretation, however, is that, per the
plain text of paragraph (2), the only type of payment
that Medicare is capable of making as a secondary
payer is a conditional one. Conditional payments are
not simply the kinds of payments Medicare may make
under certain circumstances; they are the only kind
of payments that Medicare can make as a secondary
payer. Put another way, Medicare stepping in to make
a payment when a plan has failed to do so is, by definition, conditional on the plan ultimately repaying it.
The premise of the alternative reading—that Medicare
can be forced into making payments that exceed the
scope of its statutory authority—finds no support in
the text. Thus, to act in contravention of paragraphs
(1) and (2)(A) is to violate the first and set in motion
the conditional-payment mechanism of the second.
Resisting this conclusion, Amicus Dialysis Patient
Citizens (“DPC”) maintains that we should focus on
the disjunctive nature of “primary payment (or appropriate reimbursement)” in the private-cause-of-action
provision. 42 U.S.C. § 1395y(b)(3)(A) (emphasis added).
In DPC’s view, “[t]he statute envisions two alternate
scenarios; one where Medicare has made a conditional
payment and the provider sues for ‘appropriate reimbursement’ to Medicare and another where the private
insurer simply ‘fails to provide primary payment’ to
the provider.” DPC Amicus Br. at 25. But there is an
equally compelling interpretation of this disjunctive

App. 21
language that incorporates the text’s requirement of a
conditional payment: Medicare conditional payments
are anticipated in both scenarios, and the provision
simply allows for private suits at different stages of
the payment/reimbursement process. The “fail[ure]
to provide for primary payment” scenario would involve a primary plan failing to make payments, Medicare stepping in to make these payments conditionally,
and a private party suing for the amount that Medicare has paid. The “fail[ure] to provide . . . appropriate
reimbursement” scenario, by contrast, would involve a
primary plan failing to make payments, Medicare stepping in to make these payments conditionally, the primary plan remitting insufficient reimbursement to
Medicare, and the private party suing for the additional amount that the primary plan should have remitted to Medicare. This interpretation would give
independent meaning to both parts of the statutory
phrase, and would comport with the text’s requirement
of a conditional payment by Medicare.
c. DaVita has plausibly alleged that Medicare made a conditional payment
DaVita suggests that the conclusion we have laid
out above will make it impossible for private actors
to sue for discrimination. According to DaVita, the
MSPA’s extremely high threshold for allowing Medicare to make a conditional payment—barring payment
unless the primary plan “has not made or cannot reasonably be expected to make” a payment—makes conditional payments exceedingly rare. If we were to

App. 22
conceive of conditional payments as narrowly as DaVita suggests, DaVita would undoubtedly be correct
that a “perverse result” would ensue. Reply Br. at 5. Indeed, a narrow understanding of conditional payments
would permit precisely the type of discrimination that
the MSPA prohibits. This is a result that neither the
text nor purpose of the MSPA can bear. Taking the allegations in DaVita’s complaint to be true, Medicare
has allegedly made a conditional payment in this case.7
Our task is to determine when Medicare can make
conditional payments. The “[a]uthority to make conditional payment” section of the MSPA provides that
“[t]he Secretary may make payment under this subchapter with respect to an item or service if a primary
plan . . . has not made or cannot reasonably be expected to make payment with respect to such item or
service promptly.” 42 U.S.C. § 1395y(b)(2)(B)(i). One option is to construe the phrase “has not made or cannot
reasonably be expected to make payment” to mean
“has not made or cannot reasonably be expected to
make any payment at all.” Under this approach, the
only scenario in which a planholder (or its assignee)
could sue for unlawful discrimination under the MSPA
is when (1) a primary plan terminated the planholder’s
coverage completely or flatly refused to make any further payments to the provider, and (2) Medicare
stepped in to make these payments. See, e.g., Bio-Med.,
656 F.3d at 280 (Medicare paid provider after primary
7

DaVita raises this argument in the alternative to its argument that the MSPA does not require a conditional payment. See
Appellant Br. at 36–40.

App. 23
plan terminated a patient’s coverage upon learning
that the patient was eligible for Medicare benefits). In
other words, so long as the plan has paid the provider
something for a given service, any gap-filling payment
by Medicare would not be considered conditional. But
this would “thereby insulate [the plan’s] actions from
any judicial review” under the MSPA itself. Appellant
Br. at 31. Construing the statute in this way would run
directly contrary to the text of the MSPA—which prohibits discrimination against individuals with ESRD,
as discussed below—and its purposes of protecting
both ESRD patients and Medicare’s fiscal integrity.
Instead, we construe the conditional-payment requirement in light of its neighboring provisions, which
prohibit a plan from “tak[ing] into account” an individual’s Medicare entitlement or discriminating
against an individual for having ESRD. 42 U.S.C.
§ 1395y(b)(1)(C). A plan may violate these proscriptions not only by terminating a patient’s coverage completely, but also by providing differential benefits;
either form of discrimination would result in insufficient payment to a provider, and in turn, the possibility
of a conditional payment by Medicare to ensure that
the provider continues providing treatment to the patient. It is true that DaVita did not label the alleged
payments by Medicare as “conditional” in its complaint. R. 1 (Compl. ¶¶ 1–94) (Page ID #1–29). But if
DaVita’s allegations prove true, then the only difference between this case and a termination-of-coverage
case like Bio-Medical, for example, is the level of sophistication used by the primary plan in kicking a

App. 24
patient off coverage and forcing the patient’s costs onto
Medicare. If the allegations are true, then, in essence,
Medicare’s payments were made as a secondary payer,
conditioned on the Plan’s repayment after initially
failing to abide by its primary-payer duties under the
MSPA. Thus, where MedBen asserts, “Once Patient
A left the Plan, Medicare was the primary payer,”
MedBen Br. at 3, we respond: Not if the Plan’s unlawful
actions forced Medicare into the role of primary payer
in the first place.
This is not to say that anytime Medicare remits
payment to a provider, the provider or planholder will
have a private cause of action under the MSPA. Medicare makes payments to providers all the time that are
plainly not “conditional payments.” For example, Medicare serves as the primary payer for individuals who
do not have private health insurance at all, and thus
makes regular payments on their behalf to providers.
See 42 U.S.C. § 426-1(a)(2) (setting forth entitlement to
Medicare benefits for those who are “medically determined to have end stage renal disease”). Furthermore,
if an individual who makes a truly voluntary decision
to drop their private health insurance during the
thirty-month coordination period and join Medicare,
subsequent payments by Medicare to this individual’s
providers are not conditional in any sense. Instead, by
virtue of the individual’s choice, Medicare would be the
primary payer and pay accordingly. But that is not the
situation we have here. In contrast to these hypotheticals, DaVita alleges that Patient A’s decision to leave
the Plan and go on Medicare was not truly voluntary;

App. 25
it was instead a direct result of the Plan’s discriminatory underpayment. Conditional payments do arise in
such situations. If DaVita prevails in this lawsuit,
demonstrating that Medicare made payments that it
never should have made, the Plan should be obligated
to repay Medicare per 42 U.S.C. § 1395y(b)(2)(B)(i).
We acknowledge that one implementing regulation appears to prevent conditional payment by
Medicare when a plan is engaged in discriminatory
underpayment. See Appellant Br. at 30, Reply Br. at 5.
Section 411.165 of the Code of Federal Regulations
provides that Medicare “does not make conditional primary payments” when a “[group health] plan denies a
claim in whole or in part” because the “plan limits its
payments when the individual is entitled to Medicare.”
42 U.S.C. § 411.165. Consider a scenario where a plan’s
benefits structure partially denies all dialysis claims
from ESRD patients by reimbursing providers at
0.01% of the billed rate due to these patients’ entitlement to Medicare. Applied literally, the regulation
would prohibit Medicare from filling in the enormous
gap in payment while the patient is still enrolled in the
plan and bar Medicare from footing the bill if the patient involuntarily leaves the plan. In effect, the regulation extinguishes the non-differentiation and the
take-into-account clauses’ protections throughout the
entirety of the thirty-month coordination period.
In our view, this regulation’s interpretation of
conditional payment and the surrounding statutory
framework conflicts both with the text of the MSPA
and other implementing regulations. See 42 U.S.C.

App. 26
§ 1395y(b)(1)(C)(i) (“A group health plan . . . may not
take into account that an individual is entitled to or
eligible for [Medicare] benefits.”); 42 C.F.R. § 411.108(a)(5)
(“Actions by [group health plans] or [large group health
plans] that constitute taking into account that an individual is entitled to Medicare on the basis of ESRD . . .
include, but are not limited to, the following: . . . Imposing limitations on benefits for a Medicare entitled
individual that do not apply to others enrolled in the
plan, such as providing less comprehensive health care
coverage, excluding benefits, reducing benefits, charging higher deductibles or coinsurance, providing for
lower annual or lifetime benefit limits, or more restrictive pre-existing illness limitations.”). Deference to
agency interpretation of a statute is in order only when
such interpretation is “not in conflict with the plain
language of the statute.” Kmart Corp. v. Cartier, Inc.,
486 U.S. 281, 292 (1988); Garcia v. Sec’y of Health &
Hum. Servs., 46 F.3d 552, 557 (6th Cir. 1995) (“[W]here
the Secretary’s interpretation conflicts with the plain
language of the governing statute, we will not hesitate
to overturn that interpretation.”). By way of narrowing
the availability of conditional payments, the regulation
condones plan differentiation in benefits based on an
individual’s entitlement to Medicare—an interpretation that is directly at odds with the MSPA’s text. Accordingly, we do not defer to such an interpretation.
Permitting suit under the private cause of action
in this situation, when Medicare allegedly began
paying before it should have, also comports with the
double-damages nature of the private cause of action.

App. 27
See 42 U.S.C. § 1395y(b)(3)(A) (“[D]amages . . . shall be
in an amount double the amount otherwise provided.”).
We have explained that apart from promoting a general interest in punishment and deterrence for misconduct by primary plans, double damages serve the
purposes of incentivizing private parties to bring lawsuits while also recouping Medicare’s financial losses.
See Bio-Med., 656 F.3d at 279; Star Dialysis, LLC v.
WinCo Foods Emp. Benefit Plan, 401 F. Supp. 3d 1113,
1128 (D. Idaho 2019) (“The statute provides for double
damages to allow Medicare to recoup any conditional
payments, and to offer a reward to the private litigant
bringing the action.”). If DaVita is able to demonstrate
that, as a result of the Plan’s insufficient payment or
reimbursement, Patient A was forced off of the Plan on
August 31, 2018, leading to sixteen months of conditional payments by Medicare, then the private cause of
action would serve to recoup these payments while also
rewarding DaVita for bringing the litigation.
For the foregoing reasons, we conclude that the
district court erred in dismissing Count I of DaVita’s
complaint. We hold that a conditional payment by
Medicare is required as a precondition to suing under
the MSPA’s private cause of action and that the complaint contains sufficient allegations of such a payment
for DaVita to proceed further with Count I.
B. The Assignment of Benefits
Aside from Count I, the remainder of DaVita’s complaint alleges violations of ERISA. Before assessing the

App. 28
merits of these claims, we must answer a threshold
question: May DaVita raise these claims through its
status as an assignee of Patient A?8 The district court
8

This is distinct from the question of standing, see Cranpark,
Inc. v. Rogers Grp., Inc., 821 F.3d 723, 730 (6th Cir. 2016), which
merits only brief discussion in this case. Article III standing requires a plaintiff to have “(1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the defendant, and
(3) that is likely to be redressed by a favorable judicial decision.”
Spoken, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016), as revised
(May 24, 2016) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555,
560–61 (1992)). Assuming a valid assignment from Patient A to
DaVita, DaVita has standing if Patient A suffered an injury in
fact. See Springer v. Cleveland Clinic Emp. Health Plan Total
Care, 900 F.3d 284, 287–88 (6th Cir. 2018) (“Non-participant
health care providers cannot bring their own ERISA claims—they
do so derivatively, relying on the participants’ contractually defined rights and therefore the participants’ standing at the time
of the assignment.”). The complaint clearly alleges injuries in fact,
describing Patient A’s exposure to “higher copayments, coinsurance amounts, and/or deductibles.” R. 1 (Compl. ¶ 48) (Page ID
#16–17). These risks allegedly arose due to the Plan’s denial of
benefits, which Patient A was entitled to receive in a nondiscriminatory manner by law. As our decision in Springer makes clear,
“injury does not depend on allegation of financial loss.” 900 F.3d
at 287. In Springer, as here, the provider—not the participant—
had incurred a financial loss due to underpayment by the primary
plan. The principal difference between Springer and this case—
Springer’s provider was allegedly underpaid under the terms of
the health plan, whereas here, the provider was allegedly underpaid under the terms of the MSPA—does not render Springer inapposite. In both cases, the participants were allegedly denied
benefits, even if they “were never at imminent risk of out-ofpocket expenses.” Id. (quoting N. Cypress Med. Ctr. Operating Co.
v. Cigna Healthcare, 781 F.3d 182, 192 (5th Cir. 2015)). The fact
that DaVita did not bill Patient A for the amount that it believes
it was underpaid does not alter this conclusion. See Spinedex
Physical Therapy USA Inc. v. United Healthcare of Ariz., Inc., 770
F.3d 1282, 1289 (9th Cir. 2014) (rejecting the proposition that

App. 29
answered DaVita, Inc. et al. v. Marietta Mem. Hosp. et
al. “no” as to Counts III through VI and did not address
the issue as to Counts II and VII. See DaVita, 2019 WL
4574500, at *5 & n.2.9 MedBen, named as a defendant
in Counts II and IV–VI, argues that DaVita’s “equitable ERISA claims”—which correspond to Counts IV–VI,
but not II—should be dismissed for lack of standing.
MedBen Br. at 48. Marietta and the Plan, named as
defendants in Counts II–III and VII,10 argue only that
Count III should be dismissed for lack of standing.
Marietta Br. at 10.
The putative basis for DaVita’s right to bring the
six ERISA claims is the Assignment of Benefits form
that Patient A signed prior to receiving treatment from
DaVita. The form reads:
I hereby assign to Facility and DaVita all of
my right, title and interest in any cause of
action and/or any payment due to me (or my
estate) under any employee benefit plan, insurance plan, union trust fund, or similar plan
(‘Plan’), under which I am a participant or
beneficiary, for services, drugs or supplies provided by Facility to me or my dependents for
purposes of creating an assignment of benefits
under ERISA or any other applicable law. I
“because [the provider] has not sought payment from its assigning patients for any shortfall, those patients do not have the ‘injury in fact’ necessary for Article III standing”). Accordingly,
DaVita has Article III standing to bring its ERISA claims.
9
But see supra note 2.
10
For Count III, only Marietta is named as a defendant. See
R. 1 (Compl. ¶¶ 71-73) (Page ID #24–25).

App. 30
also hereby designate DaVita as a beneficiary
under any such Plan and instruct that any
payment be made solely to and sent directly
to DaVita. If I receive any payment directly
from any Plan for services, drugs or supplies
provided to me by DaVita, including insurance checks, I recognize that such payment
sent directly to me was inappropriate and I
agree to immediately endorse and forward
such payment to DaVita.
R. 1 (Compl. ¶ 31) (Page ID #10–11). This form clearly
confers a right on DaVita to bring Count II, and the
defendants do not argue otherwise.11 Count II is a
claim for unpaid benefits, inter alia, under 29 U.S.C.
§ 1132(a)(1)(B) of ERISA; it specifically alleges that the
defendants “fail[ed] to pay DaVita what they were obligated to pay.” Id. ¶ 69–70 (Page ID #23–24). The form
undoubtedly assigns Patient A’s rights as a beneficiary
under ERISA to DaVita: “I hereby assign . . . all of my
right, title[,] and interest in any cause of action and/or
any payment due to me . . . under any [plan], under
which I am a participant or beneficiary, for services . . .
provided by [DaVita] . . . for purposes of creating
an assignment of benefits under ERISA. . . . I also
hereby designate DaVita as a beneficiary under any

11

“The only argument that any of the defendants makes with
respect to standing and Count II is that DaVita failed to plead an
injury by Patient A and therefore lacks standing. See Marietta Br.
at 9–10. This is incorrect for reasons discussed above. See supra
note 8.

App. 31
such Plan. . . .” R. 1 (Compl. ¶ 31) (Page ID #10–11)
(emphasis added).12
12

The concurrence raises a new argument that neither party
submitted to the district court, that the district court did not consider in its decision, and that neither party briefed. The concurrence submits that DaVita cannot enforce the MSPA through
§ 1132(a)(1)(B) because the provision merely “allows plan participants to sue to enforce their rights under a plan’s terms” and
does “not allow them to invalidate those terms[.]” Concurring Op.
at 52. “A nearby paragraph—§ 1132(a)(3)—. . . [gives] parties a
cause of action to challenge a plan’s legality.” Id. at 53.
Yes, §§ 1132(a)(1)(B) and 1132(a)(3) are distinct. “[Section
1132(a)(1)(B)] speaks of ‘enforc[ing]’ the ‘terms of the plan,’ not of
changing them.” CIGNA Corp. v. Amara, 563 U.S. 421, 436 (2011)
(alteration in original) (citing 29 U.S.C. § 1132(a)(1)(B)). A common § 1132(a)(1)(B) challenge involves the following scenario: a
plan—in contravention of its own specifications or an employer’s
promises—improperly denies benefits to a claimant. In these situations, the proper, and logical, remedy is a court’s invoking
§ 1132(a)(1)(B) to enforce a plan as written. Section 1132(a)(3), on
the other hand, provides that a “participant, beneficiary, or fiduciary” may seek “to enjoin any practice or act which violates
[ERISA]” or “to obtain other appropriate equitable relief[,]” 29
U.S.C. § 1132(a)(3), such as plan reformation, monetary compensation, and equitable estoppel, see Amara, 563 U.S. at 441–42.
But the two provisions are not oil and water. Courts may first
reform a plan’s terms per § 1132(a)(3) before proceeding to enforce
the reformed plan per § 1132(a)(1)(B). See Amara, 563 U.S. at
435, 438–40; see also Laurent v. PricewaterhouseCoopers LLP,
945 F.3d 739, 747–49 (2d Cir. 2019) (describing plan reformation
under § 1132(a)(3) and subsequent enforcement of the reformed
plan under § 1132(a)(1)(B) as a two-step process).
In the present case, DaVita alleges that the as-written Plan
is illegal. DaVita does not want to—nor should a court—enforce a
purportedly illegal plan; instead, DaVita seeks an equitable remedy. In its complaint, under “Count II,” DaVita asks the district
court to “sever[ ]” the “terms [of the Plan] that violate federal law”
and “reimburse DaVita pursuant to the terms of the Plan

App. 32

document and other applicable law.” R. 1 (Compl. ¶ 66) (Page ID
#22). Accordingly, DaVita seeks benefits that Patient A would
have received under a lawful version of the Plan. A court’s awarding Patient A’s unpaid benefits per the as-written Plan would not
change the fact that the Plan may illegally discriminate against
those with ESRD. See Hill v. Blue Cross & Blue Shield of Mich.,
409 F.3d 710, 718 (6th Cir. 2005). Should DaVita succeed upon
remand, “[o]nly injunctive relief of the type available under
§ 1132(a)(3) will provide the complete relief sought by [DaVita] by
requiring [the Plan] to alter the manner in which it administers
[dialysis claims].” Id; see also Amara, 563 U.S. at 440 (“[A] maxim
of equity states that equity suffers not a right to be without a
remedy.”) (internal quotation marks and alterations omitted).
Perhaps the concurrence is concerned that DaVita explicitly
cited only to § 1132(a)(1)(B) in Count II. But we cannot torpedo
DaVita’s claim simply because counsel did not write out
“§ 1132(a)(3)” under “Count II” in the complaint. Again, DaVita explicitly seeks equitable relief in Count II in line with § 1132(a)(3).
If a missing number unsettles the concurrence, perhaps it would
be proper for the district court to allow DaVita to amend Count II
to add “§ 1132(a)(3)” to the end all 66 pursuant to Federal Rule of
Civil Procedure 15(a)(2). See FED. R. CIV. P. 15(a)(2).
The concurrence adds that it “does not see” how DaVita can
“fix this problem” by relying on § 1132(a)(3) because the subsection purportedly “permits equitable relief to remedy ‘a practice
which violates any provision of this subchapter,’ not a practice
that violates a different law.” Concurring Op. at 53 (citing 29
U.S.C. § 1132(a)(3)). We consider the full text of § 1132(a)(3),
which provides that a “participant [or] beneficiary” may bring a
civil action “(A) to enjoin any act or practice which violates any
provision of this subchapter or the terms of the plan, or (B) to obtain other appropriate equitable relief (i) to redress such violations
or (ii) to enforce any provisions of this subchapter or the terms of
the plan[.]” 29 U.S.C. § 1132(a)(3) (emphasis added).
Here, DaVita does not merely allege that it should be reimbursed more for providing dialysis services because the Plan violates the MSPA; DaVita also complains that the Plan’s “singl[ing]
out dialysis services for further reimbursement limitations[,]” R.
1 (Compl. ¶ 27) (Page ID #9), violates other terms of the Plan that

App. 33

reimburse other in-network or out-of-network services at higher
rates. Cf. Star Dialysis, 401 F. Supp. 3d at 1140 (permitting
DaVita to amend its claim to “alleg[e] a violation of the Plan
terms” when DaVita’s complaint “pled only that it was not paid
‘the usual and customary rates for DaVita’s services,’ and that
DaVita was paid a ‘small fraction of the usual and customary
amounts DaVita charges and receives for its services.”). Specifically, DaVita complains that the Plan reimburses services received from in-network providers but offers “no network of
contracted dialysis providers.” R. 1 (Compl. ¶ 25) (Page ID #8).
Further, DaVita alleges, “[t]he Plan generally provides for reimbursement based on a ‘reasonable and customary’ fee if a provider
is ‘out-of-network.’ ” Id. ¶ 26. For most out-of-network services,
the “reasonable and customary” fee follows the healthcare industry’s understanding of “reasonable and customary": “a measure of
reimbursement based on providers’ billed charges in a particular
geographic area.” Id. (Page ID #8–9). However, per DaVita, dialysis treatments are the Plan’s only out-of-network service subject
to an “alternative basis for payment” that is based on a percentage of “the current Medicare allowable fee.” Id. ¶ 27 (Page ID #9);
see also id. ¶ 49 (Page ID #17) (“In other words, the [ ] Plan manipulates the definition of ‘reasonable and customary’ to be based
on a percentage of Medicare (contrary to the general industry understanding of usual, customary, and reasonable rates), and does
so solely for out-of-network dialysis services.”).
To the extent that DaVita asks the district court to reform
the Plan to extend its in-network reimbursement rates to dialysis
providers or to reimburse dialysis services based on the “reasonable and customary” fee that the Plan uses to reimburse every
other out-of-network service, id. ¶ 52 (Page ID #18), DaVita seeks
appropriate equitable relief to enforce the terms of the Plan per
§ 1132(a)(3), id. at ¶ 55 (Page ID #20). Of course, these allegations
are intertwined with DaVita’s complaints that the Plan violates
the MSPA. Id. 1152 (Page ID #18) (“[T]hese provisions removing
dialysis patients’ access to in-network options, drastically reducing reimbursement, and singling out dialysis benefits for
heightened scrutiny run afoul of the MSPA[]. . . .”). This overlap
is expected, as DaVita, in Count I, relies on the MSPA’s private
right of action to sue Defendants. But DaVita’s MSPA claims do
not undermine DaVita’s concurrently stating sufficient facts that

App. 34
As to Counts III through VI, by contrast, we conclude that DaVita lacks an assigned right or interest
in them. DaVita raises these four breach-of-fiduciaryduty claims under § 1104(a)(1)(B) and quotes the assignment selectively to argue that “Patient A assigned
‘any cause of action’ to DaVita, under ‘ERISA or any
other applicable law.’ Appellant Br. at 59. It may not be
immediately apparent from the Assignment of Benefits form that Patient A successfully assigned to
DaVita their right to seek legal and equitable relief as
to unpaid benefits per Count II but failed to assign
their right to challenge Defendants’ fiduciary duties
per Counts III–VI. But a close examination of the
form’s textual jungle reveals the difference. As highlighted above, the form stresses Patient A’s transferring their rights as a beneficiary. The form links “any
cause of action” and “any payment due” to the patient’s
status as a “beneficiary” and to the patient’s “creating
an assignment of benefits under ERISA.” Thus, Patient
A did not assign “any cause of action under ERISA or
any other applicable law” for any purpose whatsoever;
rather this patient assigned causes of action brought
to recover benefits. See DaVita, Inc. v. Amy’s Kitchen,
Inc., 379 F. Supp. 3d 960, 970 (N.D. Cal. 2019) (examining similar language and concluding that it “suggests that, at most, Patient 1 transferred to DaVita the
right to bring suit for payment of benefits, rather than
for ‘any cause of action’ whatsoever”). Further, the
the Plan’s dialysis reimbursement provisions violate the Plan’s
terms for reimbursing in-network and other out-of-network services and do not bar DaVita’s seeking equitable relief to “redress
such violations.” 29 U.S.C. § 1132(a)(3).

App. 35
policy stipulates that Patient A “designate[s] DaVita
as a beneficiary under [the] Plan”; nowhere does the
form explicitly designate DaVita as an inheritor of Patient A’s fiduciary relationship with Defendants.
DaVita protests that “[i]f the parties intended only
for Patient A to assign some causes of action, DaVita
and Patient A could have said so,” Appellant Br. at 59–
60, but the entirety of the assignment, as discussed,
shows that they did. Moreover, the title of the assignment is “Assignment of Benefits,” which informs the issue of the assignment’s scope. DaVita’s final argument
is that there must be a distinction between “any cause
of action” and “any payment due,” and linking the “any
cause of action” language to the recoupment of benefits
renders it surplusage. See Appellant Br. at 61; Reply
Br. at 29. But “any cause of action” could mean something different from “any payment due” without interpreting the former phrase to mean “any cause of action
under any existing law.” For instance, the assignment
could mean that DaVita is the assignee of both Patient
A’s interest in lawsuits related to payments as well as
Patient A’s receipt of payments outside the context of
litigation.
As to Count VII, Defendants Marietta and the
Plan—the only parties named as defendants for this
claim, see R. 1 (Compl. ¶¶ 91–94) (Page ID #29)—have
forfeited any argument that the assignment does not
allow DaVita to bring this claim as an assignee.13 And
13

With respect to Count VII, Marietta and the Plan argue
only that DaVita has “fail[ed] to state a claim for [a] violation of

App. 36
unlike Article III standing, this issue is waivable. “Article III ‘standing . . . is jurisdictional and not subject
to waiver.’ ” LPP Mortg., Ltd. v. Brinley, 547 F.3d 643,
647 (6th Cir. 2008) (quoting Lewis v. Casey, 518 U.S.
343, 349 n.1 (1996)). The question of whether Patient
A transferred their interest to DaVita, by contrast,
deals not with Article Ill standing but with the realparty-in-interest requirement of Federal Rule of Civil
Procedure 17, which states that “[a]n action must be
prosecuted in the name of the real party in interest.”
Fed. R. Civ. P. 17(a)(1); see Fed. R. Civ. P. 17(a)(1)(A)–
(G) (“The following may sue in their own names without joining the person for whose benefit the action is
brought: (A) an executor; (B) an administrator; (C) a
guardian; (D) a bailee; (E) a trustee of an express trust;
(F) a party with whom or in whose name a contract has
been made for another’s benefit; and (G) a party authorized by statute.”). We have explained that the distinction between this requirement and Article III
standing is “critical . . . because the real-party-in-interest requirement is generally viewed as ‘an affirmative
defense that can be waived,’ while Article III standing
is plaintiffs burden to prove and can be raised at any
point.” Cranpark, Inc. v. Rogers Grp., Inc., 821 F.3d 723,
730 (6th Cir. 2016) (citation omitted). Challenges under this requirement may be “waived or forfeited.” Id.
Because DaVita has Article III standing and because
Marietta and the Plan make no argument that DaVita
29 U.S.C. §1182(a)(1) in Count VII of the Complaint.” Marietta
Br. at 11. These defendants present no argument related to standing or the real-party-in-interest requirement. See id. at 11–12.

App. 37
cannot bring Count VII as an assignee, we consider
this count as well.
We reject the concurrence’s overly formalistic and
novel textual challenge that § 1182(a)(1) “applies to
a plan’s rules of eligibility, not to its rules concerning covered benefits.” Concurring Op. at 54. Section
1182(a)(1) covers “rules for eligibility (including continued eligibility) of any individual to enroll under the
terms of the plan based on . . . health status-related
factors[,]” including a person’s “[m]edical condition[.]”
29 U.S.C. § 1182(a)(1). The regulations governing § 1182
are clear—”rules for eligibility” and “rules for continued eligibility” encompass benefits provisions. See 29
C.F.R. § 2590.702(b)(1)(i) (“A group health plan . . . may
not establish any rule for eligibility (including continued eligibility) of any individual to enroll for benefits
under the terms of the plan . . . that discriminates
based on any health factor that relates to that individual. . . .”). The regulations specify that “rules for
eligibility” include “rules relating to” “[e]ligibility for
benefit packages”; “[b]enefits (including rules relating
to covered benefits, benefit restrictions, and cost-sharing mechanisms such as coinsurance, copayments, and
deductibles)”; “[c]ontinued eligibility”; and “[t]erminating coverage (including disenrollment) of any individual under the plan.” Id. § 2590.702(b)(1)(ii). Put simply,
rules governing a plan’s benefits are “rules for eligibility.” Logic also dictates that a capacious reading of the
section—not the concurrence’s narrow exposition—is
appropriate. Consider how a policy’s benefits provisions
can operate in a manner that impermissibly affects

App. 38
eligibility or enrollment. Here, DaVita does not merely
allege that the Plan discriminates against those with
ESRD—DaVita also complains that the Plan’s benefits
terms force all persons with ESRD to involuntarily
leave the Plan and enroll in Medicare.
A superficial glance at § 1182(a)(2)(B) provides
tepid support for an interpretation that excludes rules
governing benefits from “rules for eligibility.” See 29
U.S.C. § 1182(a)(2)(B) (“[Section 1182(a)(1)] shall not
be construed . . . to prevent such a plan or coverage
from establishing limitations or restrictions on the
amount, level, extent, or nature of the benefits or coverage for similarly situated individuals enrolled in the
plan or coverage.”). But, again, the provision’s accompanying regulations support our understanding that
§ 1182(a)(1) bars plans from limiting benefits based on
a health status-related factor: “a plan may limit or exclude benefits in relation to a specific disease or condition, limit or exclude benefits for certain types of
treatments or drugs, or limit or exclude benefits based
on a determination of whether the benefits are experimental or not medically necessary, but only if the benefit limitation or exclusion applies uniformly to all
similarly situated individuals and is not directed at individual participants or beneficiaries based on any
health factor of the participants or beneficiaries.” Id.
§ 2590.702(b)(2)(i)(B) (emphasis added). The regulations
contain countless illustrative examples of how rules
that govern a plan’s benefits may or may not violate
§ 1182, which further buttresses our understanding of

App. 39
this provision. See 29 C.F.R. § 2590.702(b)(2)(i)(D) (Examples 1–7).14

14

The Plan’s allegedly singling out dialysis treatments corresponds with two of the regulations’ examples. Example 2 contemplates the following scenario: a “group health plan has a $500
deductible on all benefits for participants covered under the plan”
and a participant files “a claim for the treatment of AIDS.” 29
C.F.R. § 2590.702(b)(2)(i)(D) (Example 2). The plan’s corporate
board “discuss[es]” the claim; “[s]hortly thereafter, the plan is
modified to impose a $2,000 deductible on benefits for the treatment of AIDS, effective before the beginning of the next plan
year.” Id. The regulations “[c]onclu[de]” that the facts of Example
2 “strongly suggest that the plan modification is directed at [the
participant] based on [the participant’s AIDS] claim.” Id. Here,
DaVita contends that Defendants’ limiting dialysis reimbursements across the board may be driven by the Plan’s “incentive to
unload ESRD patients whose chronic illness costs the plan more
than their other enrollees.” R. 1 (Compl. ¶ 40) (Page ID #14). Discovery may yield evidence of Defendants’ motive for instituting
unique reimbursement terms for dialysis services.
DaVita’s allegations also align with the facts of Example 5.
This example presents a scenario where a group health plan that
“applies a $2 million lifetime limit on all benefits” reduces the
limit “to $10,000 for any participant or beneficiary covered under
the plan who has a congenital heart defect.” Id. (Example 5).
Again, the regulations “conclud[e]” that this would violate § 1182
because “[the] benefits under the plan are not uniformly available
to all similarly situated individuals and the plan’s lifetime limit
on benefits does not apply uniformly to all similarly situated individuals.” Id. Here, the Plan does not explicitly single out persons with ESRD. But, as we explain in greater detail in Section
C., infra, DaVita plausibly alleges that “all, or virtually all, of the
enrollees who are affected by this discriminatory provision are
Plan members suffering from ESRD.” R. 1 (Compl. ¶ 28) (Page ID
#9–10). Essentially, DaVita complains that the Plan operates like
the problematic plan described in Example 5.
The concurrence skips over Examples 2 and 5 and turns to
Example 4 for the proposition that “[t]he regulation addressing

App. 40
C. MSPA Discrimination
Arriving to the merits of Counts II and VII, the
basic question is whether the MSPA prohibits primary
plans from discriminating against individuals with
ESRD without expressly stating that these individuals
will be treated differently. If the answer is yes, then
DaVita has plausibly alleged two ERISA violations.
First, if the defendants discriminated against Patient
A in violation of federal law (i.e., the MSPA), then
DaVita, as Patient A’s assignee, is entitled to unpaid
benefits under ERISA flowing from this violation. See
29 U.S.C. § 1132(a)(1)(B); R. 1 (Compl. ¶¶ 66–67, 70)
(Page ID #22–24). Second, if the defendants “establish[ed] rules for eligibility . . . of any individual to enroll under the terms of the [group health] plan” based
on an array of “health status-related factors,” then they
violated § 1182(a)(1) of ERISA, and § 1132(a)(3) provides a private right of action to “enjoin any act or

this section . . . expressly permits uniform limitations on benefits
for certain diseases.” Concurring Op. at 54. Example 4 provides
that a group health plan’s placing a “$2,000 lifetime limit for
treatment of temporomandibular joint syndrome (TMJ)” that is
“applied uniformly to all similarly situated individuals and is not
directed at individual participants or beneficiaries” does “not violate paragraph (b)(2)(i).” 29 C.F.R. § 2590.702(b)(2)(i)(D) (Example 4). The present case is distinct because DaVita claims that the
dialysis reimbursement rates are directed at individual beneficiaries with ESRD and that the Plan’s benefits do not uniformly
apply to similarly situated individuals because the dialysis services reimbursement rates affect only those with ESRD. See R. 1
(Compl. ¶ 52) (Page ID #18). To the extent that Example 4 conflicts with Examples 2 and 5, Example 4 should not be followed.

App. 41
practice which violates any provision of this subchapter,” 29 U.S.C. § 1132(a)(3).
We hold that the MSPA’s antidiscrimination provisions prohibit conduct beyond the express differential treatment of individuals with ESRD. First, as to
the non-differentiation provision of the MSPA, its plain
text prohibits both express anti-ESRD discrimination
based on an individual’s ESRD status and indirect
anti-ESRD discrimination based on an individual’s
ESRD-specific need for renal dialysis or based on any
other factor. Second, as to the take-into-account provision, the meaning of “take into account” is ambiguous,
but the relevant regulations support DaVita’s theory of
discrimination for the same reasons that it states a violation of the non-differentiation provision. In short, a
plan may be engaging in unlawful discrimination
against individuals with ESRD even if it does not explicitly single these individuals out for differential
treatment.
1. The Non-Differentiation Provision
Paragraph (1)(C)(ii) of the MSPA states that a
group health plan “may not differentiate in the benefits it provides between individuals having end stage
renal disease and other individuals covered by such
plan on the basis of the existence of end stage renal
disease, the need for renal dialysis, or in any other
manner” 42 U.S.C. § 1395y(b)(1)(C)(ii). The provision
thus specifies three different ways in which a plan
may unlawfully discriminate against individuals with

App. 42
ESRD. The first is by explicitly fashioning differential
benefits for ESRD patients by virtue of them having
ESRD. If, for example, the Plan included a provision
that all treatments required by Plan participants who
had ESRD were considered out-of-network, this would
single ESRD patients out based on the “existence” of
their ESRD diagnosis. Id.
The second and third types of anti-ESRD discrimination are at issue here. The second is the differential
treatment of ESRD patients based on their “need for
renal dialysis.” As DaVita explains, “need” includes
these patients’ need for the treatment compared to
those who do not need it at all, and their need compared to those who do need it, just to a lesser degree.
First, DaVita plausibly alleges that dialysis is “needed
almost exclusively by ESRD patients.” Appellant Br. at
41. That is, in a pie chart of dialysis-users, ESRD-diagnosed individuals would take up almost the full pie.
See R. 1 (Compl. ¶ 20) (Page ID #7) (“[N]early all enrollees of the Plan who require or will require dialysis are
individuals with ESRD who need such treatment to
sustain life.”). Moreover, DaVita explains—without
objection by the defendants—that individuals with
ESRD “need” dialysis with far greater frequency than
the rare, non-ESRD users of dialysis do. Compare Appellant Br. at 8 (“[T]he majority of ESRD patients rely
on regular dialysis treatments from the time they are
diagnosed with ESRD for the rest of their lives.”), with
Reply Br. at 14 n.5 (“The few dialysis patients who do
not have ESRD typically suffer from acute kidney injury (‘AKI’) and require dialysis for, at most, a period of

App. 43
weeks (as opposed to years).”). The defendants do not
counter with their own explanation of what the “need
for renal dialysis” means.
The third prohibited basis of anti-ESRD discrimination is the differential treatment of ESRD patients
“in any other manner” not covered by the prior two
bases. That is, besides engaging in anti-ESRD discrimination by explicitly carving out a different set of
benefits for those with ESRD or by targeting these individuals based on their more common and/or frequent
need for renal dialysis, a primary plan may not engage
in such discrimination through any other means. In
DaVita’s view, “[t]he catch-all phrase ‘or in any other
manner’ cautions plans against creative devices that
have the effect of such illegal differentiation.” Appellant Br. at 42. Again, the defendants offer no competing
definition for this type of prohibited discrimination.
Both of these bases support DaVita’s theory of how
the Plan discriminated against Patient A in violation
of the MSPA and ERISA. As to the second basis,
DaVita has plausibly alleged that a principal, distinguishing feature of being diagnosed with ESRD is one’s
significant need for renal dialysis. Thus, the Plan discriminates against ESRD patients based on their need
for dialysis by targeting the primary treatment that
individuals with ESRD (1) need exclusively, with the
exception of rare, non-ESRD patients, and (2) need
with far greater frequency than those few non-ESRD
dialysis-users. MedBen’s primary counterargument to
this assertion is that “[t]he Plan unequivocally provides for equal treatment of all dialysis patients in that

App. 44
all outpatient dialysis services for any medical reason
are out-of-network.” MedBen Br. at 32. Similarly, before the district court, MedBen focused on the complaint’s reference to “the Plan’s general application to
‘dialysis patients, almost all of whom have ESRD,’ ”
implying that DaVita’s failure to allege total overlap
between dialysis patients and ESRD patients was
fatal. R. 18 (MedBen Mot. to Dismiss at 12) (Page ID
#204) (quoting R. 1 (Compl ¶ 55) (Page ID #20)). Yet
there are two flaws with this counterargument. First,
it addresses only the first basis of unlawful anti-ESRD
differentiation set forth in the MSPA, and not the latter two bases. Addressing the lack of explicit discrimination in the Plan based on “the existence of end stage
renal disease” is only one-third of the way toward defending the Plan’s legality.
Second, and perhaps more fatally, it represents a
flawed understanding of antidiscrimination law. It is
true that, by targeting a service rather than a diagnosis, the Plan does not explicitly discriminate against
individuals with ESRD. As DaVita notes, however, “[a]
direct differentiation (or discrimination) claim does
not require that the challenged activity affect only the
disfavored group and no one else.” Reply Br. at 15. This
is a well-established principle in antidiscrimination
jurisprudence. Take the Supreme Court’s decision in
Lawrence v. Texas, 539 U.S. 558 (2003), for example.
The challenged law criminalized sodomy between two
persons of the same sex. Id. at 562. Although same-sex
partners are not the only class capable of engaging in
sodomy, the Court concluded that the overlap between

App. 45
the two made class-based discrimination apparent:
“When homosexual conduct is made criminal by the
law of the State, that declaration in and of itself is an
invitation to subject homosexual persons to discrimination both in the public and in the private spheres.”
Id. at 575. Lawrence also invalidated the Court’s prior
holding in Bowers v. Hardwick, 478 U.S. 186 (1986), a
decision that had upheld the criminalization of sodomy
regardless of whether the participants were of the
same sex. See Lawrence, 539 U.S. at 575, 578. This reasoning is common in antidiscrimination jurisprudence.
See, e.g., Minneapolis Star & Tribune Co. v. Minn.
Comm’r of Revenue, 460 U.S. 575, 581 (1983) (rejecting
the argument that Minnesota’s use tax on paper and
ink was “part of the general scheme of taxation,” and
concluding that the tax singled out the press for differential treatment); Bray v. Alexandria Women’s Health
Clinic, 506 U.S. 263, 270 (1993) (“A tax on wearing yarmulkes is a tax on Jews.”). Thus, if discovery in this
case reveals that there is, in fact, a “near-perfect overlap between ESRD patients and dialysis patients,” Reply Br. at 14, a jury could reasonably conclude that
discrimination against the latter constitutes discrimination against the former.
Alternatively, the catch-all provision could support a disparate-impact claim against the Plan. That
is, even if the Plan has not directly targeted ESRD
patients by differentially treating the service they
need far more than anyone else, it may have devised a
reimbursement system that has the effect of singling
out ESRD patients. The defendants argue that the

App. 46
non-differentiation provision does not permit proof
through a disparate-impact theory, but they do so
through analyzing the implementing regulations, rather than engaging with the text of the statute and
Supreme Court caselaw suggesting that it supports
disparate-impact liability.15 In Texas Department of
Housing & Community Affairs v. Inclusive Communities Project, Inc., 576 U.S. 519 (2015), the Court considered a provision of the Fair Housing Act (“FHA”) that
made it unlawful
[t]o refuse to sell or rent after the making of a
bona fide offer, or to refuse to negotiate for the
sale or rental of, or otherwise make unavailable or deny, a dwelling to any person because
of race, color, religion, sex, familial status, or
national origin.
Id. at 533 (quoting 42 U.S.C. § 3604(a)). The case centered on the meaning of “otherwise make unavailable[,]” which the Court determined was “equivalent in
function and purpose” to the phrase “otherwise adversely affect” found in both Title VII of the Civil
Rights Act (“Title VII”) and the Age Discrimination In
Employment Act (“ADEA”), id. at 533–34.16 Because
15

The district court similarly dismissed the disparate-impact argument based on its focus on one subsection of 42 C.F.R.
§ 411.161(c), without explaining how the MSPA does not “contain
th[e] type of ‘results-oriented’ language” of Texas Department of
Housing & Community Affairs v. Inclusive Communities Project,
Inc., 576 U.S. 519 (2015). See Da Vita, 2019 WL 4574500, at *4.
16
The Supreme Court held that the phrase “otherwise adversely affect” confers a disparate-impact cause of action in earlier cases. See Griggs v. Duke Power Co., 401 U.S. 424, 426 n.1

App. 47
“Mil these three statutes the operative text looks to results,” the Court held that “otherwise make unavailable”—like the phrase “otherwise adversely affect”—
“refers to the consequences of an action rather than
the actor’s intent” and “encompasses disparate-impact
claims.” Id. at 534.
As DaVita explains, see Appellant Br. at 47, there
are at least two parallels between the provision at issue in Inclusive Communities and the one at issue
here. First, the phrase appears at the end of a series of
other prohibitions that deal with disparate treatment,
counseling in favor of it meaning something different
from these other phrases. See Inclusive Communities,
576 U.S. at 534–35 (identifying the “relevant statutory
phrases” in the FHA, Title VII, and the ADEA as
“[l]ocated at the end of lengthy sentences that begin
with prohibitions on disparate treatment”); see also
Appellant Br. at 42 (“[F]or these last two phrases to
have any meaning, they must be read as expanding the
prohibition beyond explicit discrimination against
ESRD patients.”). Second, like the phrase “otherwise
make unavailable,” the phrase “in any other manner”
is exceedingly broad, sweeping in less blatant forms
of discrimination. See Inclusive Communities, 576
U.S. at 534–35 (concluding that the “relevant statutory
phrases” in the FHA, Title VII, and the ADEA “serve
as catchall phrases looking to consequences, not intent”); see also Appellant Br. at 47.

(1971) (Title VII); Smith v. City of Jackson, 544 U.S. 228, 234–36
(2005) (ADEA).

App. 48
Moreover, the Inclusive Communities Court determined that the word “otherwise” means “ ‘in a different
way or manner,’ thus signaling a shift in emphasis
from an actor’s intent to the consequences of his actions.” Inclusive Communities, 576 U.S. at 535 (quoting
Webster’s Third New International Dictionary 1598
(1971)) (emphasis added). That “in any other manner”
in the MSPA is nearly identical to the Supreme Court’s
definition of “otherwise” in Inclusive Communities further reinforces that the non-differentiation provision
permits a disparate impact claim.
MedBen’s principal response is that the implementing regulations for the non-differentiation provision
foreclose both of DaVita’s theories of discrimination.17
Given the lack of any ambiguity in the statutory text,
however, we decline to defer to the implementing regulations. See Perez v. Postal Police Officers Ass’n, 736
F.3d 736, 740 (6th Cir. 2013).18 (“Our analysis begins
with the plain meaning and, if the language is unambiguous, ends there as well.”). And even if we viewed
17

MedBen also argues that “costs exist under Medicare’s coverage structure for ESRD patients as well,” making it inappropriate “to simply assume . . . that potential exposure to out-of-pocket
costs under a private plan serves as an incentive to opt for Medicare.” MedBen Br. at 29. But this argument represents a factual
dispute, and at this stage, we assume that all of DaVita’s factual
allegations—including DaVita’s allegation that high potential
costs for ESRD patients on the Plan incentivize them to switch to
Medicare—are true.
18
Nor do we hinge our analysis on the legislative history of
the MSPA. See Isle Royale Boaters Ass’n v. Norton, 330 F.3d 777,
784 (6th Cir. 2003) (“When a statute’s text is unambiguous, there
is ordinarily no need to review its legislative history.”).

App. 49
the phrases “need for renal dialysis” and/or “in any
other manner” as ambiguous terms for which the
agency might supply a reasonable interpretation, our
analysis of these regulations, as discussed below,
points to the same result.
Put simply, the non-differentiation regulations do
more to confuse than to clarify, as they appear to conflict with one another. Section 411.161(b)(2) of the Code
of Federal Regulations provides examples of unlawful
differentiation in plan benefits, including a “[f ]ailure
to cover routine maintenance dialysis or kidney transplants, when a plan covers other dialysis services or
other organ transplants.” 42 C.F.R. § 411.161(b)(2)(v).
Routine maintenance dialysis is the exclusive province
of ESRD patients; non-ESRD patient uses of dialysis
are acute, not routine. See Reply Br. at 20. Thus, limiting benefits for those who rely more frequently on dialysis than others is, per § 411.161(b)(2)(v), unlawful.
Yet the next provision in the regulations seems to
suggest the opposite. It reads:
(c) Uniform Limitations on particular services permissible. A plan is not prohibited
from limiting covered utilization of a particular service as long as the limitation applies
uniformly to all plan enrollees. For instance, if
a plan limits its coverage of renal dialysis sessions to 30 per year for all plan enrollees, the
plan would not be differentiating in the benefits it provides between plan enrollees who
have ESRD and those who do not.

App. 50
42 C.F.R. § 411.161(c). This provision, unlike its neighbor, appears to let plans create limitations on benefits
that target and/or adversely affect those who rely frequently on dialysis. Capping dialysis sessions at thirty
per year would impact all plan participants with ESRD
but have zero impact for all or almost all individuals
without ESRD, who use dialysis sparingly and for
short periods of time—a result this provision seems to
endorse. No court has considered the internal conflict
between these regulatory provisions. Cf. Dialysis of Des
Moines, LLC v. Smithfield Foods Healthcare Plan, No.
2:18-CV-653, 2019 WL 8892581, at *5 (E.D. Va. Aug. 5,
2019) (citing 42 C.F.R. § 411.161(c) without discussion).
Yet even if we considered § 411.161(c) in isolation,
we could not rely on a provision that conflicts with
clear congressional intent. See Moses v. Providence
Hosp. & Med. Ctrs., Inc., 561 F.3d 573, 583 (6th Cir.
2009) (“Because the CMS rule is contrary to the plain
language of the statute, this Court does not afford it
Chevron deference.”). Congress has forbidden primary
plans from treating individuals with ESRD differently
based on their “need for renal dialysis,” and this regulatory provision permits treating individuals who need
dialysis more often (all or almost all of whom have
ESRD) worse than individuals who need it less often
(none or almost none of whom have ESRD). This
plainly conflicts with the text of the MSPA, not to mention the other provisions of the same implementing
regulation, see 42 C.F.R. § 411.161(b)(1), (b)(2)(v).

App. 51
For these reasons, DaVita has plausibly alleged
that the Plan violates the non-differentiation provision
of the MSPA, resulting in a denial of benefits and unlawful discrimination under ERISA.
2. The Take-Into-Account Provision
Similar reasoning extends to DaVita’s claim that
the Plan violates the take-into-account provision of
the MSPA. As a reminder, this provision states that
a group health plan “may not take into account that
an individual is entitled to or eligible for [Medicare
benefits due to ESRD]” during the thirty-month period when the plan is primary to Medicare. 42 U.S.C.
§ 1395y(b)(1)(C)(i). The statute itself does not define
what “take into account” means. DaVita argues that to
take something into account means to consider or
think of it, which means that plans are prohibited from
adopting policies that are motivated by a desire to
treat Medicare-entitled individuals differently. See Appellant Br. at 51–52. In DaVita’s view, discovery may
reveal evidence of the defendants’ illicit motive. Id. at
52. The defendants do not directly address why
DaVita’s motive-based definition of “take into account”
is incorrect. Instead, they argue that “take into account” speaks to a plan’s terms, which, in their view,
were nondiscriminatory. See MedBen Br. at 39 (“Because all plan beneficiaries who use outpatient dialysis
services, regardless of their diagnosis or condition and
including those ESRD patients who are eligible for
Medicare, are subject to out-of-network reimbursement rates, the Plan does not violate the MSPA’s ‘take

App. 52
into account’ prohibition.”). Because “take into account”
appears susceptible to these conflicting meanings, it is
ambiguous. See Brilliance Audio, Inc. v. Haights Cross
Commc’ns, Inc., 474 F.3d 365, 372 (6th Cir. 2007) (“As
both parties have laid out plausible readings of the
statutory language, we find that the language of
§ 109(b)(1)(A) is not unambiguous.”). We thus consider
whether the agency has construed this term, and if so,
whether its construction is permissible. See Chevron
U.S.A. Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837,
843 (1984); Bio-Med, 656 F.3d at 282 (deferring to 42
C.F.R. § 411.108’s “reasonable interpretation” of the
“take into account” clause).
Section 411.108 of the Code of Federal Regulations
sets forth a nonexclusive list of “[e]xamples of actions
that constitute ‘taking into account” that a person is
entitled to Medicare on the basis of ESRD, age, or
disability. 42 C.F.R. § 411.108(a). At least two of
§ 411.108’s illustrations buoy DaVita’s motive-based
interpretation of the ambiguous statutory phrase:
“taking into account” includes “denying or terminating
coverage because an individual is entitled to Medicare
on the basis of disability without denying or terminating coverage for similarly situated individuals who are
not entitled to Medicare on the basis of disability[,]” id.
§ 411.108(a)(4) or “[i]mposing limitations on benefits
for a Medicare entitled individual that do not apply to
others enrolled in the plan, such as providing less comprehensive health care coverage, excluding benefits,
reducing benefits, charging higher deductibles or coinsurance, providing for lower annual or lifetime benefit

App. 53
limits, or more restrictive pre-existing illness limitations[,]” id. § 411.108(a)(5). These two examples support DaVita’s theory of discrimination for the same
reasons discussed above in Part Ill.C.1.19 DaVita’s central allegation in this case is that ESRD patients, who
are, by law, “Medicare[-]entitled individuals,” id., are
singled out for differential treatment because their
costs are expensive and could be shifted to Medicare. If
DaVita shows, through discovery, a “near-perfect overlap” between Medicare-entitled patients (via ESRD diagnosis) and dialysis patients, Reply Br. at 14, then it
may show that, compared to other Plan enrollees, Medicare-entitled individuals are subject to reduced benefits. For these reasons, DaVita has plausibly alleged a
violation of the “take into account” provision of the
MSPA for purposes of its ERISA claims.
*

*

*

Discovery will permit DaVita the opportunity to
demonstrate that the Plan provided Patient A differential benefits based on the Patient A’s “need for renal
dialysis” or “in any other manner,” or took into account
Patient A’s eligibility for Medicare. If DaVita is successful, it may demonstrate a violation of the MSPA,
and in turn, two violations of ERISA. First, as alleged
in Count II of the complaint, violating the MSPA’s antidiscrimination provisions would mean that the Plan
did not reimburse DaVita “pursuant to the terms of the
Plan document and other applicable law.” R. 1 (Compl.
19

Our holding does not preclude a disparate impact view of
the take-into-account clause.

App. 54
¶ 66) (Page ID #22). Section 1132(a)(1)(B) of ERISA
states that in such a circumstance, an entity has a private right of action “to recover benefits due to [it] under
the terms of [the] plan.” 29 U.S.C. § 1132(a)(1)(B). Second, as alleged in Count VII of the complaint, discriminating against individuals with ESRD would violate
ERISA’s antidiscrimination provision, see 29 U.S.C.
§ 1182. For the same reasons that DaVita has plausibly alleged unlawful discrimination under the MSPA,
as discussed above, it has alleged unlawful discrimination under § 1182. Section 1132(a)(3), in turn, provides
a private right of action to enjoin such violations of
ERISA. In short, if DaVita is able to prove that the
defendants engaged in unlawful discrimination under the MSPA, it would thus demonstrate that, under
§ 1132(a)(1)(B) and § 1182(a)(1) of ERISA, Patient A
was denied benefits due under the Plan and suffered
unlawful discrimination, respectively.
IV.

CONCLUSION

For the foregoing reasons, we AFFIRM in part,
REVERSE in part, and REMAND for discovery and
further proceedings on Counts I, II, and VII of DaVita’s
complaint.

App. 55
-----------------------------------------------------------------------

APPENDIX
-----------------------------------------------------------------------

42 U.S.C. § 1395y. Exclusions from coverage and
medicare as secondary payer
...
(b)

Medicare as secondary payer

...
(1)

Requirements of group health plans

...
(C) Individuals with end stage renal
disease
A group health plan (as defined in subparagraph (A)(v))—
(i) may not take into account that an individual is entitled to or eligible for benefits under this subchapter under section
426-1 of this title during the 12-month period which begins with the first month in
which the individual becomes entitled to
benefits under part A under the provisions of section 426-1 of this title, or, if
earlier, the first month in which the individual would have been entitled to benefits under such part under the provisions
of section 426-1 of this title if the individual had filed an application for such benefits; and

App. 56
(ii) may not differentiate in the benefits
it provides between individuals having
end stage renal disease and other individuals covered by such plan on the basis of
the existence of end stage renal disease,
the need for renal dialysis, or in any other
manner;
except that clause (ii) shall not prohibit a plan from paying benefits secondary to this subchapter when an
individual is entitled to or eligible for
benefits under this subchapter under
section 426-1 of this title after the
end of the 12-month period described
in clause (i). Effective for items and
services furnished on or after February 1, 1991, and before August 5,
1997, (with respect to periods beginning on or after February 1, 1990),
this subparagraph shall be applied
by substituting “18-month” for “12month” each place it appears. Effective for items and services furnished
on or after August 5, 1997, (with respect to periods beginning on or after
the date that is 18 months prior to
August 5, 1997), clauses (i) and (ii)
shall be applied by substituting “30month” for “12-month” each place it
appears.
...

App. 57
(2)

Medicare secondary payer
(A)

In general.

Payment under this subchapter may not be
made, except as provided in subparagraph
(B), with respect to any item or service to the
extent that—
(i) payment has been made, or can reasonably be expected to be made, with respect to the item or service as required
under paragraph (1), or
(ii) payment has been made or can reasonably be expected to be made under a
workmen’s compensation law or plan of
the United States or a State or under an
automobile or liability insurance policy or
plan (including a self-insured plan) or under no fault insurance.
In this subsection, the term “primary
plan” means a group health plan or
large group health plan, to the extent
that clause (i) applies, and a workmen’s compensation law or plan, an
automobile or liability insurance policy or plan (including a self-insured
plan) or no fault insurance, to the extent that clause (ii) applies. An entity
that engages in a business, trade, or
profession shall be deemed to have a
self-insured plan if it carries its own
risk (whether by a failure to obtain
insurance, or otherwise) in whole or
in part.

App. 58
(B)

Conditional payment
(i) Authority to make conditional
payment
The Secretary may make payment under
this subchapter with respect to an item or
service if a primary plan described in subparagraph (A)(ii) has not made or cannot
reasonably be expected to make payment
with respect to such item or service
promptly (as determined in accordance
with regulations). Any such payment by
the Secretary shall be conditioned on reimbursement to the appropriate Trust
Fund in accordance with the succeeding
provisions of this subsection.
(ii)

Repayment required

Subject to paragraph (9), a primary plan,
and an entity that receives payment from
a primary plan, shall reimburse the appropriate Trust Fund for any payment
made by the Secretary under this subchapter with respect to an item or service
if it is demonstrated that such primary
plan has or had a responsibility to make
payment with respect to such item or service. A primary plan’s responsibility for
such payment may be demonstrated by a
judgment, a payment conditioned upon
the recipient’s compromise, waiver, or
release (whether or not there is a determination or admission of liability) of payment for items or services included in a
claim against the primary plan or the

App. 59
primary plan’s insured, or by other means.
If reimbursement is not made to the appropriate Trust Fund before the expiration of the 60-day period that begins on
the date notice of, or information related
to, a primary plan’s responsibility for
such payment or other information is received, the Secretary may charge interest
(beginning with the date on which the notice or other information is received) on
the amount of the reimbursement until
reimbursement is made (at a rate determined by the Secretary in accordance
with regulations of the Secretary of the
Treasury applicable to charges for late
payments).
(iii)

Action by United States

In order to recover payment made under
this subchapter for an item or service,
the United States may bring an action
against any or all entities that are or
were required or responsible (directly, as
an insurer or self-insurer, as a third-party
administrator, as an employer that sponsors or contributes to a group health plan,
or large group health plan, or otherwise) to make payment with respect to
the same item or service (or any portion
thereof) under a primary plan. The
United States may, in accordance with
paragraph (3)(A) collect double damages
against any such entity. In addition, the
United States may recover under this
clause from any entity that has received

App. 60
payment from a primary plan or from the
proceeds of a primary plan’s payment to
any entity. The United States may not recover from a third-party administrator
under this clause in cases where the
third-party administrator would not be
able to recover the amount at issue from
the employer or group health plan and is
not employed by or under contract with
the employer or group health plan at the
time the action for recovery is initiated by
the United States or for whom it provides
administrative services due to the insolvency or bankruptcy of the employer or
plan. An action may not be brought by the
United States under this clause with respect to payment owed unless the complaint is filed not later than 3 years after
the date of the receipt of notice of a settlement, judgment, award, or other payment
made pursuant to paragraph (8) relating
to such payment owed.
...
(3)

Enforcement
(A)

Private cause of action

There is established a private cause of
action for damages (which shall be in an
amount double the amount otherwise
provided) in the case of a primary plan
which fails to provide for primary payment (or appropriate reimbursement) in
accordance with paragraphs (1) and (2)(A).

App. 61
42 C.F.R. § 411.108 Taking into account entitlement to Medicare
(a) Examples of actions that constitute “taking into
account”. Actions by GHPs or LGHPs that constitute
taking into account that an individual is entitled to
Medicare on the basis of ESRD, age, or disability (or
eligible on the basis of ESRD) include, but are not limited to, the following:
(1) Failure to pay primary benefits as required
by subparts F, G, and H of this part 411.
(2) Offering coverage that is secondary to Medicare to individuals entitled to Medicare.
(3) Terminating coverage because the individual has become entitled to Medicare, except as
permitted under COBRA continuation coverage
provisions (26 U.S.C. 4980B(f )(2)(B)(iv); 29 U.S.C.
1162.(2)(D); and 42 U.S.C. 300bb-2.(2)(D)).
(4) In the case of a LGHP, denying or terminating coverage because an individual is entitled to
Medicare on the basis of disability without denying or terminating coverage for similarly situated
individuals who are not entitled to Medicare on
the basis of disability.
(5) Imposing limitations on benefits for a Medicare entitled individual that do not apply to others
enrolled in the plan, such as providing less comprehensive health care coverage, excluding benefits, reducing benefits, charging higher deductibles
or coinsurance, providing for lower annual or lifetime benefit limits, or more restrictive pre-existing
illness limitations.

App. 62
(6) Charging a Medicare entitled individual
higher premiums.
(7) Requiring a Medicare entitled individual to
wait longer for coverage to begin.
(8) Paying providers and suppliers less for services furnished to a Medicare beneficiary than for
the same services furnished to an enrollee who is
not entitled to Medicare.
(9) Providing misleading or incomplete information that would have the effect of inducing a
Medicare entitled individual to reject the employer plan, thereby making Medicare the primary
payer. An example of this would be informing the
beneficiary of the right to accept or reject the employer plan but failing to inform the individual
that, if he or she rejects the plan, the plan will not
be permitted to provide or pay for secondary benefits.
(10) Including in its health insurance cards,
claims forms, or brochures distributed to beneficiaries, providers, and suppliers, instructions to
bill Medicare first for services furnished to Medicare beneficiaries without stipulating that such
action may be taken only when Medicare is the
primary payer.
(11) Refusing to enroll an individual for whom
Medicare would be secondary payer, when enrollment is available to similarly situated individuals
for whom Medicare would not be secondary payer.

App. 63
42 C.F.R. § 411.161 Prohibition against taking
into account Medicare eligibility or entitlement or differentiating benefits.
(a)

Taking into account—
(1) Basic rule. A GHP may not take into account
that an individual is eligible for or entitled to Medicare benefits on the basis of ESRD during the
coordination period specified in § 411.162(b) and
(c). Examples of actions that constitute taking
into account Medicare entitlement are listed in
§ 411.108(a).

(b)

Nondifferentiation.
(1) A GHP may not differentiate in the benefits
it provides between individuals who have ESRD
and others enrolled in the plan, on the basis of the
existence of ESRD, or the need for renal dialysis,
or in any other manner.
(2) GHP actions that constitute differentiation in
plan benefits (and that may also constitute “taking
into account” Medicare eligibility or entitlement)
include, but are not limited to the following:
(i) Terminating coverage of individuals with
ESRD, when there is no basis for such termination
unrelated to ESRD (such as failure to pay plan
premiums) that would result in termination for individuals who do not have ESRD.
(ii) Imposing on persons who have ESRD, but not
on others enrolled in the plan, benefit limitations
such as less comprehensive health plan coverage,
reductions in benefits, exclusions of benefits, a
higher deductible or coinsurance, a longer waiting

App. 64
period, a lower annual or lifetime benefit limit, or
more restrictive preexisting illness limitations.
(iii) Charging individuals with ESRD higher premiums.
(iv) Paying providers and suppliers less for services furnished to individuals who have ESRD
than for the same services furnished to those who
do not have ESRD, such as paying 80 percent of
the Medicare rate for renal dialysis on behalf of a
plan enrollee who has ESRD and the usual, reasonable and customary charge for renal dialysis on
behalf of an enrollee who does not have ESRD.
(v) Failure to cover routine maintenance dialysis
or kidney transplants, when a plan covers other
dialysis services or other organ transplants.
(c) Uniform Limitations on particular services permissible. A plan is not prohibited from limiting covered
utilization of a particular service as long as the limitation applies uniformly to all plan enrollees. For instance, if a plan limits its coverage of renal dialysis
sessions to 30 per year for all plan enrollees, the plan
would not be differentiating in the benefits it provides
between plan enrollees who have ESRD and those who
do not.
42 C.F.R. § 411.165 Basis for conditional Medicare payments.
(a) General rule. Except as specified in paragraph (b)
of this section, the Medicare intermediary or carrier
may make a conditional payment if—

App. 65
(1) The beneficiary, the provider, or the supplier
that has accepted assignment files a proper claim
under the group health plan and the plan denies
the claim in whole or in part; or
(2) The beneficiary, because of physical or mental
incapacity, fails to file a proper claim.
(b) Exception. Medicare does not make conditional
primary payments under either of the following circumstances:
(1) The claim is denied for one of the following
reasons:
(i) It is alleged that the group health plan is secondary to Medicare.
(ii) The group health plan limits its payments
when the individual is entitled to Medicare.
(iii) Failure to file a proper claim if that failure is
for any reason other than the physical or mental
incapacity of the beneficiary.
(2) The group health plan fails to furnish information requested by CMS and necessary to determine whether the employer plan is primary to
Medicare.

App. 66
-----------------------------------------------------------------------

CONCURRING IN THE JUDGMENT
IN PART AND DISSENTING IN PART
-----------------------------------------------------------------------

MURPHY, Circuit Judge, concurring in the judgment in part and dissenting in part. Marietta Memorial Hospital offers its employees a group health plan.
Like all group health plans, the “Marietta Plan” divvies up a finite pot of funds across the many healthcare
services that employees might need. The plan offers
varied reimbursement rates for different providers
and services. The largest reimbursements go to “preferred providers” that have agreed to provide services
at a discount. But the Marietta Plan lacks a preferred
provider for dialysis services. According to DaVita, Inc.,
and DVA Renal Healthcare, Inc. (collectively, “DaVita”),
the plan reimburses dialysis at uniquely low rates. The
low rates allegedly have a disparate impact on the plan
participants who use dialysis services the most—those
with end stage renal disease. That disparate impact,
DaVita claims, violates the Medicare Secondary Payer
Act and the Employee Retirement Income Security Act
(ERISA). Like other courts to consider this theory, the
district court rejected it. I would affirm. I agree with
my colleagues that DaVita was not assigned the claims
it seeks to pursue in Counts BI through VI. But I respectfully part ways with them on the other counts
(Counts I, II, and VII).
First, DaVita’s Count I does not allege a violation of the Medicare Secondary Payer Act. That Act

App. 67
requires a group health plan to reimburse a provider
before Medicare if both programs cover a patient’s services, as will typically be the case for Medicare-eligible
individuals with end stage renal disease. To prevent
private entities from shirking this primary-payer duty,
the Act bars them from enacting plan terms that “take
into account” a participant’s Medicare eligibility or
that “differentiate” between those with end stage renal
disease and others in the covered benefits. 42 U.S.C.
§ 1395y(b)(1)(C). These limits bar plans from targeting
Medicare-eligible participants who have end stage renal disease; they do not bar plans from distinguishing
between covered services. The Marietta Plan does not
violate the limits because it does not target anyone for
different benefits. It offers the same benefits to all participants. To be sure, low reimbursement for dialysis
may disparately affect those with end stage renal disease (or at least their providers) because they use the
services more. But I do not read the statutory text to
permit this disparate-impact theory. The theory would
also prove unworkable in this context in which many
services are reimbursed at many different rates. What
if a plan’s rates for dialysis are higher than its rates
for some services but lower than its rates for others?
Which are the proper “comparators”? The statute gives
no guidance on questions like these, and I would not
read it to require common-law rate regulation.
Second, DaVita’s Counts II and VII mistakenly
rely on two inapplicable ERISA sections. The first section gives plan participants a cause of action to enforce
“the terms of the plan.” 29 U.S.C. § 1132(a)(1)(B). But

App. 68
DaVita seeks to invalidate, not enforce, those terms.
The second bars a plan from adopting “eligibility” rules
that discriminate against individuals based on their
health status. Id. § 1182(a)(1). But DaVita challenges
benefits rules, not eligibility rules.
I.

Medicare Secondary Payer Act

In 1972, Congress provided Medicare benefits to
individuals with end stage renal disease. See 42 U.S.C.
§ 426-1. Many of these individuals also had coverage
under private health plans. The question thus arose:
Who should pay healthcare providers—a private plan
or Medicare? Private parties enacted plan terms that
made them secondary payers behind Medicare or that
denied coverage to Medicare-eligible individuals. See S.
Rep. 97-139, at 469 (1981). To save money, Congress responded by amending the “Medicare Secondary Payer
Act.” The change required private plans covering individuals with end stage renal disease to be the primary
payers for a defined period (originally 12 months, now
30). Pub. L. No. 97-35, § 2146(a), 95 Stat. 357, 800
(1981). To stop plans from avoiding their primarypayer obligations by ending coverage for these individuals, this law eliminated a tax deduction for plans that
differentiated in their benefits between individuals
with end stage renal disease and others. Id. § 2146(b),
95 Stat. at 801.
In 1989, Congress restructured the Medicare Secondary Payer Act into the format found today at 42
U.S.C. § 1395y(b). Pub. L. No. 101-239, § 6202(b), 103

App. 69
Stat. 2106, 2229–32 (1989). Two clauses (which I will
call the “take-into-account clause” and the “differentiate clause”) continue to limit a plan’s ability to target
individuals with end stage renal disease. They provide:
A group health plan (as defined in subparagraph (A)(v))—
(i) may not take into account that an individual is entitled to or eligible for benefits under this subchapter under section 426-1 of
this title during the [30]-month period which
begins with the first month in which the individual becomes entitled to benefits under part
A under the provisions of section 426-1 of this
title, or, if earlier, the first month in which the
individual would have been entitled to benefits under such part under the provisions of
section 426-1 of this title if the individual had
filed an application for such benefits; and
(ii) may not differentiate in the benefits it
provides between individuals having end
stage renal disease and other individuals covered by such plan on the basis of the existence
of end stage renal disease, the need for renal
dialysis, or in any other manner[.]
42 U.S.C. § 1395y(b)(1)(C). My colleagues hold that
DaVita may enforce these clauses under the Act’s private right of action. Id. § 1395y(b)(3)(A). I would not
answer that difficult question. I would instead hold
that the two clauses quoted above do not prohibit the
Marietta Plan’s terms.

App. 70
A.

The Differentiate Clause

The differentiate clause states that a “group
health plan” “may not differentiate in the benefits it
provides between individuals having end stage renal
disease and other individuals covered by such plan on
the basis of the existence of end stage renal disease,
the need for renal dialysis, or in any other manner[.]”
Id. § 1395y(b)(1)(C)(ii). DaVita argues that the Marietta Plan violates this clause because it treats dialysis
services differently from all other covered services. The
plan has no preferred dialysis provider and offers low
reimbursement rates for dialysis services. Yet DaVita
does not allege that the plan differentiates between
participants who have end stage renal disease and
other individuals. All participants receive the same
benefits. So this case asks: Does this clause prohibit a
plan that treats all participants the same, but provides
worse coverage for services commonly used by those
with end stage renal disease?
My answer: No. The clause prohibits plans that offer participants with end stage renal disease different
benefits from others. A plan cannot, for example, cover
dialysis services for all participants except those with
end stage renal disease. Yet a plan that uniformly offers the same benefits to all groups does not violate this
clause. That is so even if this neutral plan has a disparate impact on those with end stage renal disease
because it provides lower reimbursement for services
that they use. This reading follows from the relevant
text, context, regulations, and precedent.

App. 71
1.

Text

The clause says that a “group health plan” may not
“differentiate . . . between” groups of “individuals” “in
the benefits it provides” “on the basis of the existence
of end stage renal disease, the need for renal dialysis,
or in any other manner.” Id. This text’s component
parts show that the clause prohibits plans that expressly engage in disparate treatment of individuals
with end stage renal disease. It does not bar neutral
plans that may have a disparate impact on those individuals.
Group Health Plan. Start with the subject. The
clause identifies a “group health plan” as the thing that
cannot engage in the differentiation. The act uses the
definition of “group health plan” from the Internal Revenue Code. Id. § 1395y(b)(1)(A)(v). The code, in turn,
defines group health plan as “a plan . . . of, or contributed to by, an employer . . . to provide health care” to,
among others, its employees. 26 U.S.C. § 5000(b)(1). A
“plan” is “a formal program for specified benefits.” Random House Dictionary of the English Language 1480
(2d ed. 1987); 42 C.F.R. § 411.21 (defining “plan” as “arrangement”). The clause thus regulates the program,
not the entity that picks its terms. That choice suggests
that it is the plan terms (the arrangement) that may
not engage in the forbidden “differentiation.” Cf. 42
C.F.R. § 411.21 (defining “payer” separately from
“plan”).
Differentiate Between. Congress’s verb choice indicates what those plan terms may not do: They may not

App. 72
“differentiate . . . between” two categories. The phrase
“differentiate between” means “to establish or create
the difference between people or things.” McGrawHill’s Dictionary of American Idioms and Phrasal
Verbs 151 (2005); Random House, supra, at 552. To fall
within this clause, therefore, the terms must create differences between the listed categories.
Individuals. The clause next identifies the categories that the plan terms may not create differences between: “individuals having end stage renal disease”
and “other individuals covered by such plan.” The
clause thus bars terms that establish differences between two groups of individuals; it does not bar terms
that establish differences between services. A plan
might create service differences if it covers outpatient
chemotherapy but not outpatient dialysis. Or it might
do so if it requires a $20 copayment for cancer drugs,
but a $50 copayment for similarly priced dialysis
drugs. If, however, the plan applies these coverage
choices to all participants, the plan has not established
differences between “individuals.” It has treated all individuals equally.
Benefits. The clause also suggests that it might
not bar all differentiation between the two groups,
but only a subset of distinctions: those that are “in
the benefits it provides” to participants. It thus prohibits a plan from giving individuals with end stage
renal disease a different “entitlement to have payment
made” for a healthcare service as compared to the entitlement offered to other participants for the same
service. 42 U.S.C. § 1395d(a); see Webster’s Third New

App. 73
International Dictionary of the English Language 204
(3d ed. 1986).
In Any Manner. Congress lastly added a phrase to
ensure that plan terms would not avoid this prohibited
differentiation by drawing clever distinctions. The
clause notes that a plan may not differentiate between
the two groups of individuals “on the basis of the existence of end stage renal disease, the need for renal
dialysis, or in any other manner.” (This list likely contains a typo because it makes no sense to say “on the
basis of . . . in any other manner.” A regulation parroting the statute thus adds an extra “or,” noting that a
plan may not differentiate between individuals “on the
basis of the existence of [end stage renal disease], or
the need for renal dialysis, or in any other manner.” 42
C.F.R. § 411.161(b)(1).) The first item in this series
shows that a plan may not divide participants into one
group of individuals who have “end stage renal disease” and another group who do not, and provide different benefits to the two groups. The second item
shows that a plan may not avoid that illegal differentiation by changing the label of the first group from individuals with “end stage renal disease” to individuals
who “need renal dialysis.”
The third item (“in any other manner”) bars other
“ways” or “methods” that plans might establish differences between individuals who have end stage renal
disease and others. See 9 Oxford English Dictionary
324 (2d ed. 1989). The “expansive” use of the word
“any” bars any similar differentiation between the two
groups. Freeman v. Quicken Loans, Inc., 566 U.S. 624,

App. 74
635 (2012) (citation omitted). Yet this catchall cannot
change the nature of the prohibited action. Just as a
ban on “running in any manner” would not prohibit
walking, so too the use of “any other manner” cannot
transform a ban on differentiating between individuals into a ban on differentiating between services. As
the Supreme Court has noted when describing the
word “any”: “Expansive, yes; transformative, no. It can
broaden to the maximum, but never change in the
least, the clear meaning of the phrase selected by Congress here.” Id.
Putting these phrases together, I read the clause
as barring plan terms that give different benefits to individuals with end stage renal disease, either by name
or by definitions that impliedly target that group. The
text requires courts to ask: Do a plan’s terms offer different benefits to individuals with end stage renal disease? Or, to put it differently, would an end-stagerenal-disease diagnosis change the benefits that a participant receives? If the answer is “no,” the plan is facially neutral and has not differentiated between
individuals in a way that the clause prohibits. In this
case, moreover, DaVita makes no claim that the Marietta Plan would flunk this neutrality test.
2.

Context

The Medicare Secondary Payer Act’s context confirms that we should interpret the differentiate clause
to prohibit plans that engage in express disparate
treatment of those with end stage renal disease, not

App. 75
neutral plans that have disparate impacts on them.
The Act is not a substantive healthcare law like the
Affordable Care Act designed to regulate health-plan
benefits. Nor is it an antidiscrimination law like Title
VII designed to protect against discrimination. Rather,
it is a coordination-of-benefits law designed to dictate
“the order of payment” when two programs cover the
same service. Blue Cross & Blue Shield of Tex., Inc. v.
Shalala, 995 F.2d 70, 73 (5th Cir. 1993); S. Rep. 97139, at 469–70. A broad reading of the differentiate
clause—one that bars even neutral plans with disparate impacts—would transform the Act well beyond this
coordination-of-benefits domain. Cf. Epic Sys. Corp. v.
Lewis, 138 S. Ct. 1612, 1626–27 (2018). But the clause’s
text shows that it lacks the same structure as these
other broader laws.
Is the Act a substantive healthcare law? No. A comparison of the Act to other healthcare laws shows that
it lacks the provisions that Congress uses when regulating the benefits that health plans must offer. Take
the Affordable Care Act. It requires certain health
plans to cover a minimum “essential health benefits
package.” 42 U.S.C. § 300gg-6(a); id. § 18022(b). Or consider ERISA. It, too, requires group health plans to
cover various healthcare services. See, e.g., 29 U.S.C.
§ 1185. It also requires plans to provide a level of
“parity” between medical benefits and mental-health
benefits. Id. § 1185a. But Congress did not write the
differentiate clause in either of these ways. The clause
imposes neither a substantive mandate that a plan
cover services associated with end stage renal disease

App. 76
nor an equality mandate that the plan treat those services like any other. Indeed, the Act’s allowance for
Medicare to make secondary payments if a primary
plan does not cover a provider’s full charge signals that
it does not compel any minimum reimbursement rates.
42 U.S.C. § 1395y(b)(4). If, however, we read this clause
to regulate a plan’s neutral benefits decisions, we
would effectively impose the requirement that all
plans cover services associated with end stage renal
disease on the same terms as other services.
Is the Act an antidiscrimination law? No again.
The Act lacks the defining features of the specific antidiscrimination laws that the Supreme Court has read
to impose disparate-impact liability. See Tex. Dep’t of
Hous. and Cmty. Affairs v. Inclusive Cmtys. Project,
Inc., 576 U.S. 519, 530–40 (2015) (Fair Housing Act);
Griggs v. Duke Power Co., 401 U.S. 424, 429–32 (1971)
(Title VII). To begin with, when interpreting these laws
to prohibit neutral practices with disparate impacts,
the Supreme Court reasoned that their text tied the
legality of a defendant’s action “to the consequences of
[the] action[.]” Doe v. BlueCross BlueShield of Tenn.,
Inc., 926 F.3d 235, 242 (6th Cir. 2019). Title VII, for example, contains two catchall clauses, one of which
makes it unlawful for employers “otherwise to discriminate” against an employee and the other of which
makes it unlawful for employers to “otherwise adversely affect” the employee. Tex. Dep’t of Hous., 576
U.S. at 531 (quoting 42 U.S.C. § 2000e-2(a)). The Court
relied only on the latter clause to find disparate-impact
liability. Id. It reasoned that the clause’s “operative

App. 77
text looks to results” by requiring courts to consider
how a neutral practice affected an employee. Id. at 534.
The Court thus found it proper to rely on the practice’s
outcome when deciding on its legality. Id.
This rationale is missing here. See Doe, 926 F.3d
at 242. The differentiate clause contains no similar
“results-oriented” verb. Tex. Dep’t of Hous., 576 U.S. at
535. Its catchall phrase (“in any other manner”) refers
to ways in which plan terms might differentiate between the two groups of individuals. I do not read it as
considering the effects of non-differentiating plan
terms that treat all individuals equally. Oxford English
Dictionary, supra, at 324. At most, this clause is analogous to Title VII’s first clause (“otherwise to discriminate”). But the Court has not read that clause as
creating disparate-impact liability. See Tex. Dep’t of
Hous., 576 U.S. at 530–35.
Next, when finding that the antidiscrimination
laws impose disparate-impact liability, the Court relied on their “central purpose”: to “eradicate discriminatory practices within a sector of our Nation’s
economy.” Id. at 539. That rationale is also missing
here. The Act serves a different function: to protect taxpayers. As many courts have recognized, Congress
passed the Act “No ‘curb the rising costs of Medicare[.]’ ” MSPA Claims 1, LLC v. Kingsway Amigo Ins.
Co., 950 F.3d 764, 767 (11th Cir. 2020) (citation omitted); Bio-Med. Applications of Tenn., Inc. v. Cent. States
Se. & Sw. Areas Health and Welfare Fund, 656 F.3d
277, 282 (6th Cir. 2011).

App. 78
“The oddity of applying disparate-impact discrimination in this area points in the same direction.” Doe,
926 F.3d at 242. A disparate-impact framework would
require a “wholly unwieldy” analysis. Id. (quoting Alexander v. Choate, 469 U.S. 287, 298 (1985)). A health
plan covers services for many different health conditions at varied rates. How should courts decide
whether a benefits package uniformly offered to all
participants has an illegal disparate impact on individuals with end stage renal disease? Suppose the services associated with that disease are reimbursed at
the “median” rate—such that many conditions have
better coverage and many have worse. What conditions
should we compare end stage renal disease to? Or must
end stage renal disease have the absolute worst coverage, such that all other conceivable conditions fare better?
Consider, too, that an administrator’s coverage
choices might depend on factors outside its control.
Here, for example, DaVita challenges Marietta’s failure to enter into a preferred-provider contract with a
dialysis provider. Should it matter whether Marietta
made good-faith efforts to do so? Should it matter
whether a region’s dialysis market is highly concentrated, such that the rates for dialysis are much higher
than the rates for other services? What if a preferred
dialysis provider dramatically increases its prices?
Would a plan be required to retain the provider on
threat of a disparate-impact suit? At day’s end, I see no
“objective and workable standard for choosing a reasonable benchmark by which to” decide whether a

App. 79
neutral plan has an illegal disparate impact on those
with end stage renal disease. Holder v. Hall, 512 U.S.
874, 881 (1994) (plurality op.). And the subjectivity
of this exercise will inevitably give providers leverage to threaten suit (and double damages, 42 U.S.C.
§ 1395y(b)(3)(A)) whenever they do not like a neutral
plan.
Lastly, apart from disparate-impact claims, the
antidiscrimination laws typically otherwise bar a neutral practice only if adopted with an invidious intent to
harm a protected group. Ricci v. DeStefano, 557 U.S.
557, 577–78 (2009). And a practice’s disparate impact
on that group can be evidence of the intent to harm.
Tex. Dep’t of Hous., 576 U.S. at 588 (Alito, J., dissenting). That is what the Supreme Court means when it
says that a “tax on wearing yarmulkes is a tax on
Jews”: A tax on a practice associated with a group can
be evidence of “an intent to disfavor” it. Bray v. Alexandria Women’s Health Clinic, 506 U.S. 263, 270 (1993).
Here, though, I do not read the differentiate clause to
make intent relevant. It regulates a “group health
plan,” not the employer who adopts the plan, and so
focuses on the express terms rather than the hidden
motives. The catchall “in any other manner” confirms
that the clause bars any act that qualifies as the forbidden “differentiation”—whether taken with an invidious or innocuous intent. This fact, too, suggests
that the clause does not cover neutral plans. If it did,
the clause might not allow the standard antidiscrimination defense that an employer adopted the plan for
a legitimate reason unrelated to an intent to harm

App. 80
those with end stage renal disease. And even disparate-impact claims come with the standard “business
necessity” defense—another defense that this clause’s
text might not include. Tex. Dep’t of Hous., 576 U.S. at
541–42.
In sum, any reading that would reach neutral
group health plans would depart from the Act’s context
and prove unworkable. So even if I found some ambiguity in the clause’s plain text, I would stick with the
reading I have chosen: The clause bars differentiation
between individuals, not services. See Util. Air Regulatory Grp. v. EPA, 573 U.S. 302, 321–24 (2014).
3.

Regulations

Because “Congress has supplied a clear and unambiguous answer to the interpretive question at hand,”
I would not defer to how the relevant administrative
agency (the Department of Health and Human Services) approached this question if its view differed from
my own. Pereira v. Sessions, 138 S. Ct. 2105, 2113
(2018). Still, the regulation implementing this clause
largely comports with my view that it prohibits differentiation between individuals. 42 C.F.R. § 411.161.
A subsection entitled “Uniform Limitations on
particular services permissible” states: “A plan is not
prohibited from limiting covered utilization of a particular service as long as the limitation applies uniformly to all plan enrollees.” Id. § 411.161(c) (emphasis
added). This subsection nowhere suggests that courts
must consider whether this limit disparately affects

App. 81
those with end stage renal disease. A hypothetical confirms the point: “For instance, if a plan limits its coverage of renal dialysis sessions to 30 per year for all plan
enrollees, the plan would not be differentiating in the
benefits it provides between plan enrollees who have
[end stage renal disease] and those who do not.” Id.
Even though this hypothetical limit will have a disparate impact on end-stage-renal-disease patients, the
limit does not violate the differentiate clause because
it applies to all plan participants equally.
The regulation also identifies four examples of improper “differentiation” that support my reading that
the clause prohibits differentiation between individuals, not services. It notes that a plan engages in
improper “differentiation” if it: ends coverage for “individuals” who have end stage renal disease; imposes
limits on those “persons” “but not on others enrolled in
the plan”; charges the “individuals” higher premiums;
or reimburses healthcare providers less for services
furnished “to individuals who have” end stage renal
disease as compared to the reimbursement for the “same
services” furnished to others. 42 C.F.R. § 411.161(b)(i)–
(iv) (emphases added). The last example would suggest
that it is acceptable to pay different rates for different
services, so long as the different providers received
those different rates for all participants in the plan.
That said, I agree that this regulation includes one
outlier example that seems service-based, not individual-based. The regulation suggests that a plan would
violate this clause if it failed “to cover routine maintenance dialysis or kidney transplants, when [it also]

App. 82
cover[ed] other dialysis services or other organ transplants.” Id. § 411.161(b)(v). This service-based example
cannot be reconciled with the regulation’s allowance
for uniform coverage limits. Id. § 411.161(c). It also departs from the other four individual-based examples of
improper differentiation. Id. § 411.161(b)(i)–(iv). All
told, then, the regulation generally supports my reading and, to the extent it does not, it would lose any
right to deference given its internally contradictory nature.
4.

Precedent

As far as I am aware, every district court to consider this question has interpreted this clause as I do.
See Da Vita, Inc. v. Marietta Mem’l Hosp. Emp. Health
Benefit Plan, 2019 WL 4574500, at *4 (S.D. Ohio Sept.
20, 2019); Dialysis of Des Moines, LLC v. Smithfield
Foods Healthcare Plan, 2019 WL 8892581, at *5 (E.D.
Va. Aug. 5, 2019); Da Vita, Inc. v. Amy’s Kitchen, Inc.,
379 F. Supp. 3d 960, 973 (N.D. Cal. 2019); Nat’l Renal
All., LLC v. Blue Cross & Blue Shield of Ga., Inc., 598
F. Supp. 2d 1344, 1354 (N.D. Ga. 2009). These courts
hold that the clause does not bar a plan that offers the
same benefits “to all enrollees equally,” even if it offers
worse coverage for end-stage-renal-disease services.
Marietta, 2019 WL 4574500, at *4. So, for example, a
plan that uniformly provides lower reimbursement
rates for dialysis services does not differentiate between individuals with end stage renal disease and
others. See Amy’s Kitchen, 379 F. Supp. 3d at 973;
Nat’l Renal All., 598 F. Supp. 2d at 1354. Likewise, a

App. 83
nine-month cap on dialysis coverage does not violate
the clause as “long as it is uniform, meaning that it applies to all plan enrollees regardless of an end-stagerenal-disease diagnosis. Dialysis of Des Moines, 2019
WL 8892581, at *5. This precedent supports my conclusion: Because the Marietta Plan applies the same
uniform benefits to everyone, it does not violate this
differentiate clause.
B.

The Take-Into-Account Clause

The take-into-account clause states that a “group
health plan” “may not take into account that an individual is entitled to or eligible for benefits under” 42
U.S.C. § 426-1 for a discrete period of time. 42 U.S.C.
§ 1395y(b)(1)(C)(i). DaVita again asserts that this
clause does not permit group health plans to offer a
neutral benefits package that has a disparate impact
on those who are Medicare eligible. At the least,
DaVita suggests, the neutral plan could violate this
provision if an entity adopted its terms with an intent
to target Medicare-eligible individuals. Yet, for the
same reasons that I have already discussed, I read this
clause to bar only group health plans that contain
terms expressly targeting Medicare-eligible individuals
who are eligible because of their end stage renal disease. The clause, for example, prohibits a plan from
disqualifying an individual from coverage if the individual becomes Medicare eligible. See Bio-Med.,
656 F.3d at 282–83. The clause does not, by contrast,
prohibit neutral plans that treat Medicare-eligible

App. 84
individuals the same as everyone else—regardless of
any disparate impact or plan-sponsor intent.
First, the text compels this reading. Like the differentiate clause, this clause applies to a “group health
plan,” not the employer or payer. So it regulates the
“formal program” or “arrangement,” not the motives
of the “entities” that adopted it. 42 C.F.R. § 411.21;
Random House, supra, at 1480. The phrase “take into
account” next shows that the clause bars that arrangement from giving “consideration” to, or making “allowance” for, something. 1 Oxford English Dictionary 86
(2d ed. 1989) (defining “account”); Longman Dictionary
of Phrasal Verbs 649 (1983); see Bio-Med., 656 F.3d at
282. The something? Unlike the differentiate clause,
this clause shifts the focus from all individuals with
end stage renal disease to certain individuals with that
disease. It says that, for 30 months, the plan may not
consider the fact “that an individual is entitled to or
eligible for” Medicare benefits under 42 U.S.C. § 426-1.
The clause thus has a narrower scope because Medicare does not cover all individuals with end stage renal
disease. It instead starts covering individuals only after they have received dialysis treatment for three
months (or have had a kidney transplant). Id. § 4261(b)(1)–(2); see also 42 C.F.R. § 406.13(e)(2). Thus, this
clause prohibits plan terms that consider an individual’s Medicare eligibility under § 426-1, not terms that
consider an end-stage-renal-disease diagnosis.
When the clause is read in this way, the Marietta Plan does not violate it. DaVita concedes that
the plan terms do not facially target Medicare-eligible

App. 85
individuals. Consider this point from a participant’s
perspective. A patient with end stage renal disease
must seek dialysis treatments under the Marietta
Plan’s rates for the first three months. See 42 U.S.C.
§ 426-1(b)(1). After that period, the patient will become
Medicare eligible. Does that change in status affect
this Medicare-eligible participant in any way? No, it
will not have any effect on the benefits that a participant receives or the reimbursement rate offered to dialysis providers. I thus do not see how the Marietta
Plan itself could be said to take into account a participant’s Medicare eligibility. That participant is treated
the same as a participant with end stage renal disease
who is not Medicare eligible.
Second, the contextual factors I discussed earlier
caution against finding liability for neutral plan terms.
If anything, these contextual clues apply with even
more force here. To begin with, nowhere does the
take-into-account clause contain the type of “resultsoriented” language that the Supreme Court has required for disparate-impact liability. Tex. Dep’t of
Hous., 576 U.S. at 535; see Doe, 926 F.3d at 242. In addition, the Medicare Secondary Payer Act uses the
same “take into account” phrase in nearby provisions.
The Act indicates that a group health plan may not
“take into account” that a plan participant is entitled to
participate in the general Medicare program because
of age or disability. 42 U.S.C. § 1395y(b)(1)(A)(i)(I),
(B)(i). A disparate-impact theory thus would not be
cabined to this end-stage-renal-disease provision. It
would prohibit group health plans from enacting any

App. 86
neutral term that caused a disparate impact on, for example, individuals over 65 who are Medicare eligible.
Many diseases and conditions uniquely impact the elderly, and disparate-impact liability would leave plans
with no guidance concerning plan terms for these
elder-focused services. Additionally, this disparateimpact theory would render superfluous a nearby provision that bars plans from providing inferior benefits
to those over 65 as are available to those under that
age. Id. § 1395y(b)(1)(A)(i)(II). That illegal age-based
differential treatment would also have an obvious
disparate impact on Medicare-eligible individuals
over 65. It confirms that the take-into-account clause
should not be broadly read to impose disparate-impact
liability.
Third, while I again find the language clear, regulations confirm my reading that the clause bars discriminatory plan terms that target Medicare-eligible
individuals, not neutral plan terms that apply to all
participants. See 42 C.F.R. §§ 411.108, 411.161(a)(1).
All of the regulatory examples of improper “taking into
account” involve plan terms that target Medicare-eligible individuals. A plan may not terminate “coverage
because the individual has become entitled to Medicare,” id. § 411.108(a)(3), impose “limitations on benefits for a Medicare entitled individual that do not apply
to others enrolled in the plan,” id. § 411.108(a)(5), or
pay “providers and suppliers less for services furnished
to a Medicare beneficiary than for the same services
furnished to an enrollee who is not entitled to Medicare,” id. § 411.108(a)(8). The examples, by contrast,

App. 87
nowhere suggest that a plan could improperly “take
into account” Medicare eligibility by providing the
same reimbursement for Medicare-eligible and noneligible individuals if those neutral rates disparately
affected the former group. If anything, the examples
suggest that a group health plan may apply neutral
rules to all individuals. They note that a plan could
neutrally extend to Medicare-eligible individuals the
requirement that an employee must have worked for a
year as long as that requirement applied to all other
participants. Id. § 411.108(b)(1).
Fourth, precedent again supports my view. The
same district courts discussed above agree that a plan
only violates this provision when it “treats those eligible for Medicare differently than those who are not.”
Marietta, 2019 WL 4574500, at *3; Dialysis of Des
Moines, 2019 WL 8892581, at *5; Amy’s Kitchen, 379
F. Supp. 3d at 972–733; Nat’l Renal All., 598 F. Supp.
2d at 1354. To date, moreover, our court has found a
violation of the take-into-account clause only when a
health plan expressly eliminated coverage for participants who were eligible for Medicare. Bio-Med., 656
F.3d at 282–83. Yet the Marietta Plan falls on the right
side of this divide because, unlike the plan in Bio-Medical, it does not target Medicare-eligible individuals for
unique treatment. It thus does not violate this takeinto-account clause.

App. 88
II.

ERISA

While the parties’ briefing did not focus on the two
ERISA causes of action that DaVita asserts in Counts
II and VII, I find it unlikely that DaVita could rely on
those provisions here.
A.

Section 1132(a)(1)(B)

In Count II, DaVita alleges that it may enforce its
alleged violation of the Medicare Secondary Payer Act
using ERISA’s private right of action in 29 U.S.C.
§ 1132(a)(1)(B). Yet this provision allows plan participants to sue to enforce their rights under a plan’s
terms. It does not allow them to invalidate those
terms—as DaVita seeks to do. Section 1132(a)(1)(B)
states that a “civil action may be brought” by a plan
“participant or beneficiary” “to recover benefits due to
him under the terms of his plan, to enforce his rights
under the terms of the plan, or to clarify his rights to
future benefits under the terms of the plan.” Id. Each
ground for suit requires a plaintiff to seek relief “under
the terms of the plan.” Id. (emphasis added). A typical
suit under § 1132(a)(1)(B) thus involves a participant
challenging a denial of benefits under the plan terms.
See, e.g., Univ. Hosps. of Cleveland v. Emerson Elec. Co.,
202 F.3d 839, 841, 845–47 (6th Cir. 2000); Wilkins v.
Baptist Healthcare Sys., Inc., 150 F.3d 609, 611, 615
(6th Cir. 1998). Nowhere does this text suggest that a
participant may sue because “the terms of the plan” violate the law.

App. 89
Structural clues point in the same direction. A
nearby paragraph—§ 1132(a)(3)—shows that Congress
knows how to give parties a cause of action to challenge
a plan’s legality. Unlike § 1132(a)(1)(B), this paragraph
provides a right to sue to enjoin or redress “any act or
practice which violates any provision of this subchapter or the terms of the plan[.]” 29 U.S.C. § 1132(a)(3)
(emphasis added). Section 1132(a)(3) thus distinguishes
suits to remedy violations of ERISA from suits to remedy violations of the plan. It confirms that § 1132(a)(1)(B),
which permits only suits to enforce the plan, does not
permit suits to challenge the plan as illegal. Cf. Nat’l
Ass’n of Mfrs. v. Dep’t of Def, 138 S. Ct. 617, 631 (2018).
Precedent confirms this reading. See Cigna Corp.
v. Amara, 563 U.S. 421, 435–37 (2011). In Cigna, beneficiaries suing under § 1132(a)(1)(B) claimed that plan
administrators had violated various ERISA provisions
by giving deficient notice about a plan’s changes. Id. at
424. The district court agreed. Id. at 431–32. The court
also read § 1132(a)(1)(B) to allow it to reform the plan
terms and require benefits consistent with its new
terms. Id. at 432–34. The Supreme Court reversed,
holding that § 1132(a)(1)(B) does not give courts the
power to change a plan’s terms and instead merely allows plaintiffs to enforce those terms as written. Id. at
435–37.
This text and precedent show that DaVita will encounter difficulty if it intends to rely on § 1132(a)(1)(B)
to enforce the Medicare Secondary Payer Act. DaVita
does not seek to enforce rights under the Marietta
Plan’s terms. Instead, DaVita complains about those

App. 90
terms. It attempts to use this provision to strike terms
that affect its dialysis services and replace them with
better terms. But § 1132(a)(1)(B) does not grant a
broad right to litigate whether a plan comports with
every law on the books. It permits suits to compel defendants to live up to a plan’s terms. “By arguing that
the terms of the Plan do not comply with the law,
[DaVita] tacitly concedes that the relief [it] seek[s] exists outside the scope of [the Marietta Plan]. And an
action attempting to re-write the terms of a plan is
unavailable under § 1132(a)(1)(B).” Soehnlen v. Fleet
Owners Ins. Fund, 844 F.3d 576,583 n.2 (6th Cir. 2016).
I also do not see how DaVita could fix this problem by
seeking to enforce its alleged violation of the Medicare
Secondary Payer Act using the ERISA cause of action
in § 1132(a)(3), rather than the one in § 1132(a)(1)(B).
Section 1132(a)(3) permits equitable relief to remedy a
“practice which violates any provision of this subchapter,” not a practice that violates a different law. 29
U.S.C. § 1132(a)(3).
B.

Section 1182(a)(1)

In Count VII, DaVita relies on this ERISA cause
of action in § 1132(a)(3) to remedy an alleged violation
of a separate ERISA provision barring certain forms of
discrimination (not a violation of the Medicare Secondary Payer Act). See id. § 1182(a)(1). Yet this ERISA section applies to a plan’s rules of eligibility, not to its
rules concerning covered benefits.

App. 91
Section 1182(a)(1) provides: “Subject to paragraph
(2), a group health plan . . . may not establish rules
for eligibility (including continued eligibility) of any
individual to enroll under the terms of the plan based
on” a list of “health status-related factors[.]” Id.
§ 1182(a)(1). The list of factors includes things like
“Health Status,” “Medical condition,” “Receipt of health
care,” and “Disability.” Id. § 1182(a)(1)(A), (B), (D), (H).
This text limits a plan’s ability to adopt “specified criteria” for the “entitlement to be considered or chosen”
as a “registered or acknowledged member” of the plan.
5 Oxford English Dictionary 140, 277 (2d ed. 1989) (defining “eligibility” and “enroll”). It does not require a
plan to provide any types of benefits to enrolled members.
Section 1182(a)(2) includes disclaimers that confirm this reading. It states that § 1182(a)(1) should not
be construed “to require a group health plan . . . to provide particular benefits other than those provided under the terms of such plan[.]” 29 U.S.C. § 1182(a)(2)(A).
And it adds that § 1182(a)(1) should not be construed
“to prevent such a plan . . . from establishing limitations or restrictions on the amount, level, extent, or nature of the benefits or coverage for similarly situated
individuals enrolled in the plan[.]” Id. § 1182(a)(2)(B).
These disclaimers remove all doubt that § 1182(a)(1)’s
restrictions concern the eligibility for joining (or staying in) the plan, and do not regulate the benefits that
the plan provides. The regulation addressing this section supports this reading as it expressly permits

App. 92
uniform limitations on benefits for certain diseases.
See 29 C.F.R. § 2590.702(b)(2)(i)(B) & (D) (Example 4).
DaVita’s challenge to the Marietta Plan’s dialysis reimbursement rates thus does not fall within
§ 1182(a)(1). The patient on whose behalf DaVita sued
successfully enrolled in the plan and was never subjected to terms that stripped the patient of eligibility
for any of the plan’s covered benefits. Indeed, DaVita’s
complaint nowhere challenges any eligibility rules at
all, let alone ones that discriminate on the basis of
health status. DaVita claims only that the Marietta
Plan’s uniform benefits package exposes end-stage-renal-disease patients to higher costs. That is exactly the
type of “limitation[ ] or restriction[ ] on the amount,
level, extent, or nature of the benefits” that is expressly
excluded from this subsection’s scope. 29 U.S.C.
§ 1182(a)(2)(B).
*

*

*

For these reasons, I respectfully concur in the
judgment in part and dissent in part. I would affirm
outright.

App. 93
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-4039
DAVITA, INC.; DVA RENAL HEALTH, INC.,
Plaintiffs - Appellants,
v.
MARIETTA MEMORIAL HOSPITAL
EMPLOYEE HEALTH BENEFIT PLAN;
MARIETTA MEMORIAL HOSPITAL;
MEDICAL BENEFITS MUTUAL
LIFE INSURANCE CO.,
Defendants - Appellees.
Before: MOORE, CLAY, and
MURPHY, Circuit Judges.
JUDGMENT
(Filed Oct. 14, 2020)
On Appeal from the United States District Court
for the Southern District of Ohio at Columbus.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the judgment of the district court is AFFIRMED
IN PART, REVERSED IN PART, and REMANDED for

App. 94
further proceedings consistent with the opinion of this
court.
ENTERED BY ORDER
OF THE COURT
/s/ Deb S. Hunt
Deborah S. Hunt, Clerk

App. 95
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
DAVITA, INC., et al.,
Plaintiffs,
v.

Case No. 2:18-cv-1739
: Judge Sarah D. Morrison
Magistrate Judge
Kimberly A. Jolson

MARIETTA MEMORIAL
HOSPITAL EMPLOYEE
HEALTH BENEFIT
PLAN, et al.,
:
Defendants.
OPINION AND ORDER
(Filed Sep. 20, 2019)
This matter is before the Court on Defendants’
Motions to Dismiss. (ECF Nos. 17, 18.) Plaintiff filed a
Memorandum in Opposition in response to each Motion (ECF Nos. 23, 24), and Defendants each filed a
Reply (ECF Nos. 35, 38). Plaintiffs have also filed a
Consent Motion for Leave to File Sur-Reply (ECF No.
39) and a Request for Oral Argument (ECF No. 43).
Defendant Medical Benefits Mutual Life Insurance
Company (“MedBen”) filed a Response to Plaintiffs’
Request for Oral Argument. (ECF No. 45.) These matters are now ripe for consideration.

App. 96
I.

BACKGROUND

Plaintiff DaVita, and its subsidiary, co-Plaintiff
DVA Renal Healthcare, Inc., are dialysis care providers. (Compl., ECF No. 1, ¶¶ 11–12.) Plaintiffs provide
their services to members of various health benefit
plans, including Defendant Marietta Memorial Hospital Employee Health Benefit Plan (the “Plan”). (Id. at
¶ 1.) Defendants Marietta Memorial Hospital (“Marietta”) and MedBen are the Plan Administrator and
Third Party Administrator for the Plan. (Id. at ¶¶ 8,
14.) The Plan is a self-funded health benefit plan governed by the Employee Retirement Income Security
Act of 1974 (“ERISA”), and it provides for various reimbursement levels for services provided by various
health care providers. (Id. at ¶¶ 13, 24.) The aspect of
the Plan that is relevant here deals with its treatment
of dialysis providers. It classifies all dialysis providers
as “out-of-network” and thereby reimburses them at a
lower rate. (Id. at ¶¶ 25–28.)
Most individuals who require dialysis do so because they have End Stage Renal Disease (“ESRD”),
including Patient A, who receives dialysis from Plaintiffs. (Id. at ¶¶ 19–20.) Patient A was a member of the
Plan until August 31, 2018, when Medicare became Patient A’s primary insurance. (Id. at ¶ 29.)
On December 19, 2018, Plaintiffs filed the Complaint against Defendants, arguing that the Plan
treats dialysis providers differently than other medical
providers in violation of federal law. Plaintiffs have
brought suit in their own names, as well as on behalf

App. 97
of Patient A. (See, e.g., id. at ¶ 60.) Plaintiffs assert that
they have standing to sue on behalf of Patient A based
on an “Assignment of Benefits” form that Patient A
signed (the “Assignment”), by which Patient A assigned
particular rights to Plaintiffs. (Id. at ¶ 31.)
II.

STANDARD OF REVIEW

Federal Rule of Civil Procedure 8(a) requires a
plaintiff to plead each claim with sufficient specificity
to “give the defendant fair notice of what the . . . claim
is and the grounds upon which it rests.” Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007) (alteration in original) (internal quotations omitted). A complaint that
falls short of the Rule 8(a) standard may be dismissed
if it fails to state a claim upon which relief can be
granted. Fed. R. Civ. P. 12(b)(6).
To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as true, to state a claim to relief that is
plausible on its face. A claim has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged. The plausibility
standard is not akin to a probability requirement, but it asks for more than a sheer possibility that a defendant has acted unlawfully.
Where a complaint pleads facts that are
merely consistent with a defendant’s liability,
it stops short of the line between possibility
and plausibility of entitlement to relief.

App. 98
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal citations and quotations omitted). The complaint need
not contain detailed factual allegations, but it must
include more than labels, conclusions, and formulaic
recitations of the elements of a cause of action. See Directv, Inc. v. Treesh, 487 F.3d 471, 476 (6th Cir. 2007).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory statements, do not
suffice.” Iqbal, 556 U.S. at 678 (citing Twombly, 550
U.S. at 555).
III. ANALYSIS
Plaintiffs claim that Defendants are required to
treat dialysis care providers more favorably than they
currently do, including that they must reimburse these
providers at a higher rate. Plaintiffs argue that Defendants’ disfavored treatment of dialysis providers
violates the nondiscrimination provisions of the Medicare Secondary Payer Act (“MSPA”), as well as various
provisions of ERISA.
A. Preliminary Matters
Various dialysis providers, including Plaintiffs,
have been litigating similar cases across the country,
resulting in four recent district court opinions that the
parties have brought to the Court’s attention. (ECF
Nos. 41, 42, 44.) All four of these opinions were issued
after Plaintiffs filed their responses to the motions to
dismiss, and three were issued after briefing closed
entirely. As a result, Plaintiffs have filed a Motion for

App. 99
Leave to File Sur-Reply (ECF No. 39) in order to address the one opinion that had been issued at the time
they filed the motion. Plaintiffs represent that Defendants consent to the Motion.
Pursuant to Local Rule 7.2(a)(2), no additional
memoranda may be filed subsequent to a reply brief,
except “upon leave of court for good cause shown.” S.D.
Ohio Civ. R. 7.2(a)(2). The Court finds that Plaintiffs
have established good cause. The Motion for Leave to
File Sur-Reply is GRANTED.
In addition, Plaintiffs have filed a Request for Oral
Argument (ECF No. 43), also because of this new authority. After examining the briefs and the record, the
Court has determined that oral argument is unnecessary. The parties have adequately presented their arguments and facts in their extensive briefing, and oral
argument would not aid in the decisional process. See
Fed. R. Civ. P. 78(b); S.D. Ohio Loc. R. 7.1(a). Plaintiffs’
Request for Oral Argument is DENIED.
B. Count 1 – The MSPA Claim
Individuals with ESRD are eligible for Medicare,
regardless of age or income, three months after beginning a regular course of dialysis. 42 U.S.C. §§ 426-1,
1395c (2012). However, such individuals are not required to transition to Medicare immediately upon becoming eligible. In fact, Congress, through the MSPA,
sought to make Medicare the secondary payer for dialysis treatments for privately insured individuals with
ESRD for the first thirty months of Medicare eligibility.

App. 100
Bio-Med. Applications of Tenn., Inc. v. Cent. States Se.
& Sw. Areas Health & Welfare Fund, 656 F.3d 277, 281
(6th Cir. 2011); see 42 C.F.R. § 411.162(a) (2019). That
is, Congress decided that Medicare would serve, at
least initially, as the backstop to the “primary payers,”
the individuals’ private health plans. Bio-Med., 656
F.3d at 281.
1. Private right of action
As a part of this statutory scheme, the MSPA created a private right of action whereby private actors
can sue a primary plan for damages if that plan fails
to provide for primary payment (or appropriate reimbursement) in accordance with this primary/secondary
payer structure. 42 U.S.C. § 1395y(b)(3)(A); Bio-Med.,
656 F.3d at 284–85. However, a primary plan is only
liable when it “causes Medicare to step in and (temporarily) foot the bill.” Bio-Med., 656 F.3d at 286. That
means that it must have been the case that Medicare
made payments that the primary payer was responsible for making. DaVita Inc. v. Virginia Mason Mem’l
Hosp., No. 2:19-CV-302-BJR, 2019 WL 3205865, at *4
(W.D. Wash. July 16, 2019).
In this case, Medicare never had to step in to make
payments that the Plan, Patient A’s primary plan,
failed to make Medicare only began to make payments
once Patient A voluntarily left the Plan and enrolled in
Medicare. DaVita argues that it is sufficient that Patient A left the Plan prematurely and enrolled in Medicare. (Pls.’ Reply to Def. MedBen Mot. Dismiss, ECF

App. 101
No. 24, at 13 n.7.) It is not. Pursuant to the MSPA, the
Plan was only required to make payments (or to reimburse Medicare) so long as Patient A was enrolled in
the Plan. The Plan was never required to make payments once Patient A voluntarily enrolled in Medicare,
even if he/she could have remained on the Plan for a
longer period of time. This does not fall within the limited scope of the private cause of action. See Virginia
Mason, 2019 WL 3205865, at *5 (“[O]nce Patient 1
switched to Medicare, Medicare, not the Plan, became
the primary payer.”).
2. Nondiscrimination provisions
There are additional and independent grounds to
dismiss the MSPA claim.
In order to prevent private plans from providing
inferior benefits to individuals with ESRD, or from
ending their coverage entirely, Congress included two
nondiscrimination provisions in the MSPA, the “take
into account” provision and the “nondifferentiation”
provision. See 42 U.S.C. § 1395y(b)(1)(C); Bio-Med.,
656 F.3d at 281; 42 C.F.R. § 411.161 (2019). The “take
into account” provision prohibits group health plans
from “tak[ing] into account that an individual [with
ESRD] is entitled to or eligible for [Medicare] benefits”
for the first thirty months of eligibility. 42 U.S.C.
§ 1395y(b)(1)(C)(i); Bio-Med., 656 F.3d at 281–82. That
is, a group health plan is prohibited from “consider[ing]
the fact that an insured person” is eligible for Medicare

App. 102
in making coverage decisions. Bio-Med., 656 F.3d at
282 (emphasis deleted).
The implementing regulations pertaining to this
provision provide various “[e]xamples of actions that
constitute ‘taking into account,’ ” all of which involve
treating those eligible for Medicare differently from
those who are not. See, e.g., 42 C.F.R. §§ 411.108(a)(5)
(“Imposing limitations on benefits for a Medicare entitled individual that do not apply to others enrolled in
the plan”), (8) (“Paying providers and suppliers less for
services furnished to a Medicare beneficiary than for
the same services furnished to an enrollee who is not
entitled to Medicare”). It follows from the language of
the “take into account” provision and from its implementing regulations that a health plan only violates
this provision through disparate treatment based on
Medicare eligibility—that is, when a group health plan
treats those eligible for Medicare differently than
those who are not. See Dialysis of Des Moines, LLC v.
Smithfield Foods Healthcare Plan, No. 2:18-CV-653,
slip op. at 11–12 (E.D. Va. Aug. 5, 2019) (“[A] limitation
on services is permitted so long as it is uniform, meaning that it applies to all plan enrollees regardless of
Medicare eligibility or ESRD diagnosis.”); Da Vita, Inc.
v. Amy’s Kitchen, Inc., 379 F. Supp. 3d 960, 973 (N.D.
Cal. 2019) (finding that because those receiving dialysis treatment who are Medicare-eligible and those who
are not are subject to the same provisions, the benefit
plan did not violate the “take into account” provision);
Nat’l Renal All., LLC v. Blue Cross & Blue Shield of
Ga, Inc., 598 F. Supp. 2d 1344, 1354 (N.D. Ga. 2009)

App. 103
(“Plaintiffs have not demonstrated that Blue Cross’s
decision to lower reimbursement rates on dialysis
treatment . . . constitutes ‘taking into account’ or ‘differentiating’ a level of coverage provided to those suffering from ESRD and those not.”)
The “nondifferentiation” provision tells group
health plans that they “may not differentiate in the
benefits [they] provide[ ] between individuals having
end stage renal disease and other individuals covered
by such plan on the basis of the existence of end stage
renal disease, the need for renal dialysis, or in any
other manner” during the first thirty months of Medicare eligibility. 42 U.S.C. § 1395y(b)(1)(C)(ii); Bio-Med.,
656 F.3d at 282. Examples of such prohibited “differentiation” include “[i]mposing on persons who have
ESRD, but not on others enrolled in the plan, benefit
limitations” and “[p]aying providers and suppliers less
for services furnished to individuals who have ESRD
than for the same services furnished to those who do
not have ESRD. . . .” 42 C.F.R. §§ 411.161(b)(ii), (iv).
The regulations for the “nondifferentiation” provision specifically say that “[a] plan is not prohibited
from limiting covered utilization of a particular service
as long as the limitation applies uniformly to all plan
enrollees.” 42 C.F.R. § 411.161(c). As with the “take
into account provision,” the language of the “nondifferentiation” provision and its implementing regulations shows that a health plan only violates this
provision when it treats those with ESRD differently
than those who do not have ESRD (i.e., disparate treatment). See Dialysis of Des Moines, slip op. at 11–12;

App. 104
Amy’s Kitchen, 379 F. Supp. 3d at 973 (“[T]he applicable rates in Amy’s Plan are set based on the fact of dialysis treatment, not the existence of ESRD.”); Nat’l
Renal All., 598 F. Supp. 2d at 1354. (“Significant to the
court’s finding is the fact that there is no allegation
that Blue Cross pays a different amount for dialysis
treatment of non-ESRD patients than ESRD patients.”)
Therefore, Defendants have violated these provisions, and thereby the MSPA, only if the Plan treats
those eligible for Medicare differently than those who
are not, or it treats those who have ESRD differently
than those who do not. Plaintiffs argue that Defendants’ categorization of dialysis providers as “out-of-network” and the corresponding reduction in the dialysis
reimbursement rate violates both provisions. Based on
the facts that they have alleged, however, Plaintiffs
have failed to state a claim that Defendants have violated either provision.
Plaintiffs acknowledge that the aspects of the Plan
about which they complain apply to all enrollees receiving dialysis. (ECF No. 1, ¶ 25.) That is why Plaintiffs’ claims fail. It cannot be the case that the Plan has
“taken into account” or “considered” an individual’s
Medicare status if all patients receiving dialysis (including those ineligible for Medicare) are governed by
the same standards. Nor can it be the case that Defendants have “differentiate[d]” between individuals
with ESRD and individuals without ESRD when all
Plan enrollees receiving dialysis (including those without ESRD) are subject to the same provisions.

App. 105
Plaintiffs rely on a disparate impact argument.
They argue that because individuals with ESRD comprise a disproportionately large number of those receiving dialysis, changes in the Plan’s treatment of
dialysis providers has a discriminatory result, even if
they are not facially discriminatory. (Pls.’ Response to
Def. Marietta Mot. to Dismiss, ECF No. 23, at 9–11.) To
support their argument, Plaintiffs point to other statutes that the Supreme Court has found to encompass
disparate impact claims. (Id.)
The difference between these statutes and the
MSPA is in their language, and it is that difference
why those statutes allow for disparate impact claims
but the MSPA does not. For example, the Supreme
Court found that the phrase “otherwise make unavailable” in the Fair Housing Act “refers to the consequences of an action rather than the actor’s intent,”
which is demonstrative of congressional intent to provide for disparate-impact claims. Tex. Dep’t of Hous. &
Cmty. Affairs v. Inclusive Cmtys. Project, Inc., 135 S. Ct.
2507, 2518 (2015). But the MSPA does not contain this
type of “results-oriented” language.
The only language that Plaintiffs point to in order
to support their disparate impact argument is the language in the “nondifferentiation” provision prohibiting
differentiation in benefits on account of ESRD, the
need for dialysis, or “in any other manner.” (ECF No.
23, at 10.). But Plaintiffs ultimately concede that this
language cannot be read as broadly as they claim.
(Pls.’ Response to Def. MedBen Mot. to Dismiss, ECF
No. 24, at 13.) This is because the MSPA regulations

App. 106
specifically say that “[a] plan is not prohibited from
limiting covered utilization of a particular service as
long as the limitation applies uniformly to all plan enrollees.” 42 C.F.R. § 411.161(c). Thus, health plan limitations are permissible under the MSPA as long as
they apply to all enrollees equally, as here.
The last argument that Plaintiffs make in support
of their disparate impact argument comes from one of
the responses by the Department of Health and Human Services (“HFIS”) to a comment during the noticeand-comment period before the MSPA rules were finalized. In support of this argument, Plaintiffs selectively,
and in misleading fashion, quote a portion of MIS’s response, arguing: “The ‘taking into account’ provisions
expressly bar even facially neutral ‘[p]lan provisions
that have the effect of denying, restricting, or terminating benefits for [ESRD-based Medicare eligible]
individuals.’” (ECF No. 24, at 13 (alterations in original) (quoting Medicare Program; Medicare Secondary
Payer for Individuals Entitled to Medicare and Also
Covered Under Group Health Plans, 60 Fed. Reg.
45344-01, at 45351 (Aug. 31, 1995)).) The full comment
response says: “Plan provisions that have the effect of
denying, restricting, or terminating benefits for disabled beneficiaries who have LGHP[1] coverage by virtue
of current employment status, but not for similarly
situated individuals, are prohibited.” 60 Fed. Reg., at
45351. The full quote not only does not support

1

Large Group Health Plan.

App. 107
Plaintiffs’ argument, but it is further evidence that a
disparate impact claim is not cognizable under the
MSPA.
In short, there is nothing illegal about the disputed terms in the Plan. Because Plaintiffs’ claim is
not cognizable under the MSPA as a matter of law,
Count One is DISMISSED with prejudice for failure
to state a claim upon which relief can be granted.
C. Counts Two through Seven – The ERISA
Claims
In addition to their MSPA claim, Plaintiffs have
brought six ERISA claims—one claim pursuant to 29
U.S.C. § 1132(a)(1)(B), based on allegedly illegal Plan
provisions (Count Two); four claims alleging breaches
of fiduciary obligations by Defendants (Counts Three
through Six); and one claim pursuant to 29 U.S.C.
§ 1182(a)(1), the nondiscrimination provisions of ERISA
(Count Seven).
1. Counts Two and Seven
Count Two is premised entirely on purported
violations of the MSPA. (See ECF No. 1, ¶¶ 67–68 (“Because these payment provisions targeting dialysisrelated treatment are illegal, they should be severed
from the Plan” and “Defendants’ conduct constitutes a
breach of the ERISA plans at issue. . . .”)) Plaintiffs
do not allege that Defendants have not complied with
the terms of the Plan; rather, they allege that the

App. 108
Defendants have violated ERISA by complying with
illegal provisions of the Plan. Because the Court has
already determined that the claim that the Plan’s provisions are illegal fails as a matter of law, Count Two
is DISMISSED with prejudice as well.
Count Seven fails for similar reasons. Plaintiffs argue that the Plan discriminates “against plan participants and beneficiaries on the basis of health condition
and medical status, including disability,” in violation of
29 U.S.C. § 1182(a)(1). (ECF No. 1 ¶ 92.) Specifically,
Plaintiffs allege that the Plan discriminates against
enrollees suffering from ESRD. (Id.) As has already
been explained, this is not the case; those with ESRD
are treated the same as those without.
Plaintiffs argue that the Plan’s disparate treatment of dialysis services constitutes an additional example of discrimination on the basis of disability. (ECF
No. 23, at 15.) This argument ignores one of the statute’s corresponding regulations, which specifically says
that “a group health plan or group health insurance
issuer is not required to provide coverage for any particular benefit to any group of similarly situated individuals.” 29 C.F.R. § 2590.702(b)(2)(i)(A) (2019). The
Plan treats all similarly situated individuals equally:
all those requiring dialysis are treated exactly the
same. Count Seven is also DISMISSED with prejudice.

App. 109
2. Counts Three through Six
Counts Three through Six are all fundamentally
the same claim. They all allege breach of alleged fiduciary duties by Defendants. (See ECF No. 1, at 24–29.)
Plaintiffs bring each of these claims as assignees of Patient A, meaning that they rely on a valid assignment.2
As a result, if Patient A has not assigned to Plaintiffs
his/her rights to bring equitable claims under ERISA,
Plaintiffs have no standing to bring these claims.3
Plaintiffs rely on an Assignment that is part of a
form called “Patient Acknowledgment, Authorization
and Financial Responsibility Form.” (Pls.’ Sur-Reply,
Ex. A, ECF No. 39-1, at 1.) This form has the stated
purpose of “confirm[ing the patient’s] choice to receive
dialysis services at the listed facility and that [the
2

Plaintiffs have brought Counts Two and Seven as assignees
as well. (ECF No. 1 ¶¶ 70, 94.) However, the validity of the assignment as to these claims is irrelevant because of the fundamental flaws in each claim described in the previous section.
3
“Non-participant health care providers cannot bring
their own ERISA claims—they do so derivatively, relying on
the participants’ contractually defined rights and therefore the
participants’ standing at the time of the assignment.” Springer v.
Cleveland Clinic Emp. Health Plan Total Care, 900 F.3d 284,
287–88 (6th Cir. 2018). Plaintiffs explicitly bring Counts Three
and Four only as an assignee. (ECF No. 1, ¶¶ 73, 77.) Counts Five
and Six contain no such explicit provision. However, Plaintiffs
have incorporated all of their prior allegations into Counts Five
and Six (including those related to Patient A’s assignment of
rights). (See ECF No. 1 ¶¶ 78, 84). Given this incorporation, and
given that Plaintiffs have no standing to bring these claims on
behalf of themselves, the Court construes Counts Five and Six as
being brought by Plaintiffs in their role as Patient A’s assignee,
as with Counts Three and Four.

App. 110
patient] will be personally responsible for payments
and other services [the patient] receive[s] through
DaVita. Further, [the patient is] assigning rights to
payments from [the patient’s] insurer and authorizing
DaVita to obtain the necessary information to obtain
such payments.” (Id.) In a section called “Assignment
of Benefits; Lien,” the form states as follows:
I hereby assign to DaVita all of my right, title
and interest in any cause of action and/or any
payment due to me (or my estate) under any
employee benefit plan, insurance plan, union
trust fund, or similar plan (“Plan”), under
which I am a participant or beneficiary, for
services, drugs or supplies provided by DaVita
to me for purposes of creating an assignment
of benefits under ERISA or any other applicable law. I also hereby designate DaVita as a
beneficiary under any such Plan and instruct
that any payment be made solely to and sent
directly to DaVita. If I receive any payment
directly from any Plan for services, drugs or
supplies provided to me by DaVita, including
insurance checks, I recognize that such payment sent directly to me was inappropriate
and I agree to immediately endorse and forward such payment to DaVita. I agree that
DaVita shall have an automatic lien and/or
security interest against any such payment I
receive from any Plan.”
(Id. at 2, 115.)
The quoted language is broad, and Plaintiffs argue
that it is not limited to the payment of benefits. (ECF

App. 111
No. 23, at 14.) In particular, Plaintiffs highlight the reference to “any cause of action,” arguing that Patient
A has assigned to Plaintiffs his/her right to sue for
breach of fiduciary duty under ERISA. (Id.)
The reference to “cause of action” is arguably ambiguous, and such ambiguity is construed against the
drafter. See Clemons v. Norton Healthcare Inc. Retirement Plan, 890 F.3d 254, 266–67 (6th Cir. 2018) (holding that contra proferentum doctrine “has legitimate
force” in an ERISA case, except where a benefits administrator is entitled to deference). This doctrine
“compels a drafting party to be honest about its offer
up front, by threatening to construe terms ‘against the
offeror’ if he attempts to hoodwink the other party.” Id.
at 267. Plaintiffs, as the drafter of this Assignment, do
not get the benefit of the doubt. Plaintiffs could have
explicitly written an assignment that assigned rights
to equitable causes of action, but they did not do so.
The broader context of the form on which the Assignment is located, as well as its precise location on
the form, adds clarity to what the Assignment means.
It is located in a subsection called “Assignment of Benefits” on a form that is almost entirely about insurance
payments and which form’s stated purpose involves
“assigning rights to payments,” not lawsuits.
The meaning of “cause of action” must be informed
by its context. Cf. Food & Drug Admin. v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 132 (2000) (“The
meaning—or ambiguity—of certain words or phrases
may only become evident when placed in context.”)

App. 112
Context reveals that “cause of action” is related to benefits under ERISA (e.g., suing for deprivation of benefits) not fiduciary duty responsibilities under ERISA.
The form in no way indicates that in signing it a patient would be assigning his or her rights to bring a
claim for a breach of fiduciary duty. See Restatement
(Second) of Contracts § 324 (1981) (“It is essential to
an assignment of a right that the obligee manifest an
intention to transfer the right to another person without further action or manifestation of intention by the
obligee.”); cf. Herr v. U.S. Forest Serv., 803 F.3d 809, 821
(6th Cir. 2015) (finding that deed did not manifest intention to transfer particular property right).
At least one other court has reviewed an “Assignment of Benefits” provision that is identical in all material respects to the Assignment. (Compare ECF No.
39-1, at 1, with (Def. Mot. Dismiss Ex. B at 2 1¶ 5,
Amy’s Kitchen, 379 F. Supp. 3d 960 (No. 4:18-CV-6975,
ECF No. 25-3)) (“I hereby assign to DaVita all of my
right, title and interest in any cause of action and/or
any payment due to me . . . under ERISA or any other
applicable law.”).) That court, too, concluded that
“cause of action” does not include claims for equitable
relief. Compare Amy’s Kitchen, 379 F. Supp. 3d at 970
(“In light of the broader context of the patient form,
which focuses on the responsibility of the patient to
pay for treatment, the reference to ‘any cause of action’
found solely in a provision titled ‘Assignment of Benefits,’ and the relatively generic language employed by
the assignment compared to what courts in the Ninth
Circuit have found sufficient to confirm an explicit

App. 113
assignment of a right to bring ERISA claims beyond
benefits, the Court finds the scope of the assignment
here to be limited to the right to claims for payment of
benefits.”); see also Star Dialysis, LLC v. WinCo Foods
Employee Benefit Plan, No. 1:18-CV-482-CWD, 2019
WL 3069849, at*14–*16 (D. Idaho July 12, 2019) (“Both
the context of and language used in the assignment
suggests, at most, that Patients 1-6 transferred to
DaVita the right to bring suit for payment of benefits
. . . and not for any cause of action under ERISA whatsoever.”). Although the analysis by the Amy’s Kitchen
court relied on Ninth Circuit precedent by which it
was bound, the Court finds its analysis to be persuasive. The Court also finds the one relevant Ninth Circuit case on which the Amy’s Kitchen court relied—
Spinedex Physical Therapy USA, Inc. v. United Healthcare of Arizona, Inc.—to be persuasive.
In Spinedex, health plan beneficiaries had signed
forms that said, in all capital letters, “This is a direct
assignment of my rights and benefits under this policy.” 770 F.3d 1282, 1292 (9th Cir. 2014). The health
care provider argued that “rights” included the right to
sue for breach of fiduciary duty. Id. The court found
that “[t]he entire focus of the Assignment is payment
for medical services provided” and that “[t]he Assignment nowhere indicates that . . . patients were assigning to Spinedex rights to bring claims for breach of
fiduciary duty.” Id. As a result, the court concluded that
the context of the assignment indicated that the assignment of rights was limited to claims for payment
of benefits. Id.

App. 114
Plaintiffs argue that this difference in language—
"cause of action” in their Assignment versus “rights” in
the Spinedex assignment—is material. (ECF No. 24, at
7.) However, they provide no explanation as to why this
is the case, and the Court sees no reason why “cause of
action” should be read any more broadly than “rights”
in this context.
Accordingly, the Court finds that the Assignment,
read in context, is limited to rights and causes of action
pertaining to benefits. Plaintiffs have no valid assignment of rights to bring equitable claims and therefore
have no standing to assert these claims on behalf of
Patient A.
Counts Three through Seven are DISMISSED
with prejudice, for lack of standing.
IV. CONCLUSION
For the reasons set forth above, Plaintiffs Consent
Motion for Leave to File Sur-Reply is GRANTED.
Plaintiff ’s Request for Oral Argument is DENIED.
Defendant Marietta and Defendant Plan’s Motion
to Dismiss is GRANTED. Defendant MedBen’s Motion to Dismiss is GRANTED. The Complaint is DISMISSED with prejudice.

App. 115
IT IS SO ORDERED.
/s/ /s/ Sarah D. Morrison
SARAH D. MORRISON
UNITED STATES
DISTRICT JUDGE

App. 116
No. 19-4039
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DAVITA, INC.; DVA RENAL
HEALTH, INC.,
Plaintiffs-Appellants,
v.
MARIETTA MEMORIAL
HOSPITAL EMPLOYEE
HEALTH BENEFIT PLAN;
MARIETTA MEMORIAL
HOSPITAL; MEDICAL
BENEFITS MUTUAL
LIFE INSURANCE CO.,
Defendants-Appellees.

)
)
)
)
)
)
ORDER
)
) (Filed Dec. 23, 2020)
)
)
)
)
)
)

BEFORE: MOORE, CLAY, and MURPHY, Circuit
Judges.
The court received two petitions for rehearing en
banc. The original panel has reviewed the petitions for
rehearing and concludes that the issues raised in the
petitions were fully considered upon the original submission and decision of the case. The petitions then
were circulated to the full court.* No judge has requested a vote on the suggestion for rehearing en banc.

* Judges White, Thapar, and Bush recused themselves from
participation in this ruling.

App. 117
Therefore, the petitions are denied.
ENTERED BY ORDER
OF THE COURT
/s/ Deb S. Hunt
Deborah S. Hunt, Clerk

App. 118
29 U.S.C. § 1182. Prohibiting discrimination
against individual participants and beneficiaries based on health status
(a) In eligibility to enroll
(1) In general
Subject to paragraph (2), a group health plan,
and a health insurance issuer offering group
health insurance coverage in connection with a
group health plan, may not establish rules for eligibility (including continued eligibility) of any individual to enroll under the terms of the plan
based on any of the following health status-related
factors in relation to the individual or a dependent
of the individual;
(A)

Health status,

(B) Medical condition (including both
physical and mental illnesses),
(C)

Claims experience.

(D)

Receipt of health care.

(E)

Medical history.

(F)

Genetic information.

(G) Evidence of insurability (including
conditions arising out of acts of domestic violence).
(H) Disability.
(2) No application to benefits or exclusions
To the extent consistent with section 1181 of
this title, paragraph (1) shall not be construed—

App. 119
(A) to require a group health plan. or
group health insurance coverage, to provide
particular benefits other than those provided
under the terms of such plan or coverage, or
(B) to prevent Such a plan or coverage
from establishing limitations or restrictions
on the amount, level, extent, or nature of the
benefits or coverage for similarly situated individuals enrolled in the plan or coverage.
(3) Construction
For purposes of paragraph (1), rules for eligibility to enroll under a plan include rules defining
any applicable waiting periods for such enrollment.
(b) In premium contributions
(1) In general
A group health plan, and a health insurance
issuer offering health insurance coverage in connection with a group health plan may not require
any individual (as a condition of enrollment or
continued enrollment under the plan) to pay a premium or contribution which is greater than such
premium or contribution for a similarly situated
individual enrolled in the plan on the basis of any
health status-related factor in relation to the individual or to an individual enrolled under the plan
as a dependent of the individual.

App. 120
(2) Construction
Nothing in paragraph (1) shall be construed—
(A) to restrict the amount that an employer may be charged for coverage under a
group health plan except as provided in paragraph (3); or
(B) to prevent a group health plan, and
a health insurance issuer offering group
health insurance coverage, from establishing
premium discounts or rebates or modifying
otherwise applicable copayments or deductibles in return for adherence to programs of
health promotion and disease prevention.
(3) No group-based discrimination on basis
of genetic information
(A) In general
For purposes of this section, a group
health plan, and a health insurance issuer offering group health insurance coverage in
connection with a group health plan, may not
adjust premium or contribution amounts for
the group covered under such plan on the basis of genetic information.
(B) Rule of construction
Nothing in subparagraph (A) or in paragraphs (1) and (2) of subsection (d) shall be
construed to limit the ability of a health insurance issuer offering health insurance coverage in connection with a group health plan to
increase the premium for an employer based
on the manifestation of a disease or disorder

App. 121
of an individual who is enrolled in the plan. In
such case, the manifestation of a disease or
disorder in one individual cannot also be used
as genetic information about other group
members and to further increase the premium for the employer.
(c) Genetic testing
(1) Limitation on requesting or requiring
genetic testing
A group health plan, and a health insurance
issuer offering health insurance coverage in connection with a group health plan, shall not request
or require an individual or a family member of
such individual to undergo a genetic test.
(2) Rule of construction
Paragraph (1) shall not be construed to limit
the authority of a health care professional who is
providing health care services to an individual to
request that such individual undergo a genetic
test.
(3) Rule of construction regarding payment
(A) In general
Nothing in paragraph (1) shall be construed to preclude a group health plan, or a
health insurance issuer offering health insurance coverage in connection with a group
health plan, from obtaining and using the results of a genetic test in making a determination regarding payment (as such term is
defined for the purposes of applying the regulations promulgated by the Secretary of

App. 122
Health and Human Services under part C of
title XI of the Social Security Act [42 U.S.C.
1320d et seq.] and section 264 of the Health
Insurance Portability and Accountability Act
of 1996, as may be revised from time to time)
consistent with subsection (a).
(B) Limitation
For purposes of subparagraph (A), a
group health plan, or a health insurance issuer offering health insurance coverage in
connection with a group health plan, may request only the minimum amount of information necessary to accomplish the intended
purpose.
(4) Research exception
Notwithstanding paragraph (1), a group
health plan, or a health insurance issuer offering
health insurance coverage in connection with a
group health plan, may request, but not require,
that a participant or beneficiary undergo a genetic
test if each of the following conditions is met:
(A) The request is made, in writing, pursuant to research that complies with part 46
of title 45, Code of Federal Regulations, or
equivalent Federal regulations, and any applicable State or local law or regulations for
the protection of human subjects in research.
(B) The plan or issuer clearly indicates
to each participant or beneficiary, or in the
case of a minor child, to the legal guardian of
such beneficiary, to whom the request is made
that—

App. 123
(i) compliance with the request is
voluntary; and
(ii) non-compliance will have no effect on enrollment status or premium or
contribution amounts.
(C) No genetic information collected or
acquired under this paragraph shall be used
for underwriting purposes.
(D) The plan or issuer notifies the Secretary in writing that the plan or issuer is conducting activities pursuant to the exception
provided for under this paragraph, including
a description of the activities conducted.
(E) The plan or issuer complies with
such other conditions as the Secretary may by
regulation require for activities conducted under this paragraph.
(d) Prohibition on collection of genetic information
(1) In general
A group health plan, and a health insurance
issuer offering health insurance coverage in connection with a group health plan, shall not request, require, or purchase genetic information for
underwriting purposes (as defined in section
1191b of this title).
(2) Prohibition on collection of genetic information prior to enrollment
A group health plan, and a health insurance
issuer offering health insurance coverage in

App. 124
connection with a group health plan, shall not request, require, or purchase genetic information
with respect to any individual prior to such individual’s enrollment under the plan or coverage in
connection with such enrollment.
(3) Incidental collection
If a group health plan, or a health insurance
issuer offering health insurance coverage in connection with a group health plan, obtains genetic
information incidental to the requesting, requiring, or purchasing of other information concerning any individual, such request, requirement, or
purchase shall not be considered a violation of
paragraph (2) if such request, requirement, or purchase is not in violation of paragraph (1).
(e) Application to all plans
The provisions of subsections (a)(1)(F), (b)(3), (c),
and (d), and subsection (b)(1) and section 1181 of this
title with respect to genetic information, shall apply to
group health plans and health insurance issuers without regard to section 1191a(a) of this title.
(f) Genetic information of a fetus or embryo
Any reference in this part to genetic information
concerning an individual or family member of an individual shall—
(1) with respect to such an individual or
family member of an individual who is a pregnant
woman, include genetic information of any fetus
carried by such pregnant woman; and

App. 125
(2) with respect to an individual or family
member utilizing an assisted reproductive technology, include genetic information of any embryo
legally held by the individual or family member.

